<html>
<title> - ACCELERATED EDUCATION BENEFITS FOR VETERANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                     ACCELERATED EDUCATION BENEFITS


                              FOR VETERANS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              May 3, 2007

                               __________

                           Serial No. 110-18

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                     U.S. GOVERNMENT PRINTING OFFICE

35-637 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     RICHARD H. BAKER, Louisiana
Dakota                               HENRY E. BROWN, Jr., South 
HARRY E. MITCHELL, Arizona           Carolina
JOHN J. HALL, New York               JEFF MILLER, Florida
PHIL HARE, Illinois                  JOHN BOOZMAN, Arkansas
MICHAEL F. DOYLE, Pennsylvania       GINNY BROWN-WAITE, Florida
SHELLEY BERKLEY, Nevada              MICHAEL R. TURNER, Ohio
JOHN T. SALAZAR, Colorado            BRIAN P. BILBRAY, California
CIRO D. RODRIGUEZ, Texas             DOUG LAMBORN, Colorado
JOE DONNELLY, Indiana                GUS M. BILIRAKIS, Florida
JERRY McNERNEY, California           VERN BUCHANAN, Florida
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota

                   Malcom A. Shorter, Staff Director

                                 ______

                  Subcommittee on Economic Opportunity

          STEPHANIE HERSETH SANDLIN, South Dakota, Chairwoman

JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas, Ranking
JERRY McNERNEY, California           RICHARD H. BAKER, Louisiana
JOHN J. HALL, New York               JERRY MORAN, Kansas

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                              May 3, 2007

                                                                   Page
Accelerated Education Benefits for Veterans......................     1

                           OPENING STATEMENTS

Chairwoman Stephanie Herseth Sandlin.............................     1
    Prepared statement of Chairwoman Herseth Sandlin.............    28
Hon. John Boozman, Ranking Republican Member.....................     2
    Prepared statement of Congressman Boozman....................    28

                               WITNESSES

U.S. Department of Veterans Affairs:
James Bombard, Chairman, Veterans Advisory Committee on Education    18
    Prepared statement of Mr. Bombard............................    37
Keith M. Wilson, Director, Education Service, Veterans Benefits 
  Administration.................................................    19
    Prepared statement of Mr. Wilson.............................    38

                                 ______

American Legion, Ronald F. Chamrin, Assistant Director, Economic 
  Commission.....................................................    11
    Prepared statement of Mr. Chamrin............................    35
Michaud, Hon. Michael H., a Representative in Congress from the 
  State of Maine.................................................     3
    Prepared statement of Congressman Michaud....................    29
Professional Truck Driver Institute, Chris Burruss, President, 
  and President, Truckload Carriers Association, and North 
  American Training Management Institute.........................     6
    Prepared statement of Mr. Burruss............................    30
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................     9
    Prepared statement of Mr. Weidman............................    33

                       SUBMISSIONS FOR THE RECORD

National Veterans Business Development Corporation, The Veterans 
  Corporation, Walter G. Blackwell, President and Chief Executive 
  Officer, statement.............................................    40
Paralyzed Veterans of America, statement.........................    40

                   MATERIAL SUBMITTED FOR THE RECORD

U.S. Department of Labor, Employment and Training Administration 
  list entitled, ``The President's High Growth Job Training 
  Initiative''...................................................    42


                     ACCELERATED EDUCATION BENEFITS



                              FOR VETERANS

                              ----------                              


                         THURSDAY, MAY 3, 2007

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
Room 334, Cannon House Office Building, Hon. Stephanie Herseth 
Sandlin [Chairwoman of the Subcommittee] presiding.
    Present: Representatives Herseth Sandlin, Donnelly, 
McNerney, Hall, Boozman.

        OPENING STATEMENT OF CHAIRWOMAN HERSETH SANDLIN

    Ms. Herseth Sandlin. Good afternoon, ladies and gentlemen. 
The Veterans' Affairs Economic Opportunity Subcommittee hearing 
on accelerated education benefits for veterans will come to 
order.
    Before I begin with my opening statement, I would like to 
call attention to the fact that Mr. Walter Blackwell, President 
and CEO of The Veterans Corporation, and the Paralyzed Veterans 
of America have asked to submit a written statement for the 
record.
    If there is no objection, I ask for unanimous consent that 
these statements be entered for the record. Hearing no 
objection, so entered.
    Today we will be hearing testimony on accelerated education 
benefits. In 2001, Congress passed legislation to assist 
veterans in paying for short-term, high-cost education 
programs. Instead of paying the monthly education benefits, the 
accelerated education benefits provide a lump sum of 60 percent 
of tuition for certain programs.
    To be eligible to participate in the accelerated education 
benefit program, individuals must qualify for the Montgomery GI 
Bill (MGIB) active duty, be enrolled in a short-term, high-cost 
education program such as life or physical science, 
engineering, mathematics, or computer specialties, and intend 
to seek employment in a high-technology industry.
    In addition, the tuition fees must be 200 percent of MGIB 
benefits that an individual would receive for that term. To 
date, approximately 4,000 veterans have or are benefiting from 
this important program.
    You might recall that on May 25, 2005, under the leadership 
of Mr. Boozman, this Subcommittee conducted a hearing on the 
issue of accelerated education benefits. That hearing raised 
several interesting issues that we can build upon and explore 
further today.
    While I am supportive of the program, I am very interested 
in receiving testimony to help the Subcommittee determine if 
the process time is adequate and meeting the needs of 
servicemembers, if expansion of eligible programs is warranted, 
and if expansion beyond the Montgomery GI Bill active duty 
Chapter 30 is warranted as well.
    Ranking Member Boozman, I look forward to learning more 
from the testimony we receive today, building on the work of 
the last Congress, and working with our colleagues to ensure 
our Nation's veterans are provided the best education services 
that they have rightfully earned and deserve.
    [The statement of Ms. Herseth Sandlin appears on p. 28.]
    I now recognize the Ranking Member, Mr. Boozman, for any 
opening remarks he may have.

             OPENING STATEMENT OF HON. JOHN BOOZMAN

    Mr. Boozman. Thank you very much, Madam Chairwoman, for 
bringing us together today to discuss the accelerated payment 
option of the Montgomery GI Bill.
    First, I have a list of the approved high-technology 
programs taken from the VA Web site and ask unanimous consent 
that the list be entered in the record.
    Ms. Herseth Sandlin. Hearing no objection, so entered.
    Mr. Boozman. Thank you.
    [The referenced list entitled, ``The President's High 
Growth Job Training Initiative,'' appears on p. 42.]
    The original intent of this payment option was to improve 
the affordability of the relatively high cost of the short-
duration programs. Absent specificity from Congress, the 
Department coordinated with the National Science Foundation and 
the Bureau of Labor Statistics to create the approved list and 
I am sure the Department is prepared to discuss and describe 
their process.
    Despite what is a lengthy list, incongruities exist. For 
example, urban forestry is approved, but nursing is not. I 
believe it may be time to refocus the program and better define 
the goal of the program.
    While improving funding for high-tech courses is a valid 
goal, I think it ignores one of the major shortcomings of the 
GI Bill and that is the 30 percent of those who sign up but 
never use their benefit.
    College is not for everyone nor does a long-term degree 
program fit in every life situation. For example, those 
servicemembers who leave the military are often married with 
children and cannot afford 4 years away from the job market and 
need help in the form of affordable, short-term education or 
training in fields that may be normally viewed as non-high 
tech.
    I believe, therefore, the accelerated benefit program 
should be a tool to make veterans' education benefits more 
flexible to help these veterans. We should focus primarily on 
improving access to non-degree programs. That would include 
things like short-term certification courses but not a course 
that is part of a degree.
    And given the level of sophistication in most sectors of 
the economy, it is hard to find jobs other than the most basic 
general labor that do not either require or strongly encourage 
formal education or training.
    Truck driving, for example. My district is the home to 
headquarters of five of the ten largest trucking companies in 
America and I know for a fact that they are constantly seeking 
new long- and short-haul drivers.
    With all the regulations regarding hazardous materials and 
driving standards, truck driving is becoming more technically 
oriented every day. And I believe the industry needs about 
100,000 more drivers for jobs that offer starting pay in the 
range of $40,000.
    I note that one of our witnesses today will testify to the 
standards to certify truck driving schools. I have seen their 
criteria and let us just say that certainly today's schools are 
not the schools that our fathers trained under.
    Other transportation modes such as the railroads and 
certainly aviation also have significant technical training. 
High technology should not be the only determinant.
    There are sectors of the economy crying for help these 
days, most of which require employees to master some measure of 
high technology. Transportation, hospitality, construction, 
healthcare, are just four of the dozen high-demand job fields 
that offer good wages and careers for our veterans.
    [The statement of Mr. Boozman appears on p. 28.]
    Madam Chairwoman, I look forward to working with you as 
always to make our education benefits programs more relevant to 
all of our veterans. Thank you very much.
    Ms. Herseth Sandlin. Thank you very much, Mr. Boozman.
    I would like to welcome back those who have testified 
before this Subcommittee previously and also those who are here 
testifying for the first time today.
    Joining us on our first panel is our friend, Congressman 
Michael Michaud of Maine, a senior Member of our Committee and 
Chairman of the Subcommittee on Health. I thank him for his 
leadership on a number of issues under the jurisdiction of the 
different Subcommittees and the full Committee.
    Mr. Michaud, welcome, and we want to recognize you for 5 
minutes.

   STATEMENT OF HON. MICHAEL H. MICHAUD, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Mr. Michaud. Thank you very much, Chairwoman Herseth 
Sandlin and Ranking Member Boozman and Congressman Donnelly. I 
appreciate the initiative your Subcommittee has shown in 
considering my bipartisan legislation, House Resolution 1824, 
and allowing me the opportunity to appear before you today to 
discuss this very important piece of legislation.
    As we all care about in the Veterans' Affairs Committee, we 
owe a great debt to those who put their lives in harm's way 
protecting our country. When they come home, I believe it is 
critical that we provide them with an opportunity to live the 
American dream that they have risked to protect this country.
    That means providing healthcare and benefits compensation, 
but it also means ensuring economic opportunity as well. My 
legislation would allow accelerated payments of educational 
assistance under the Montgomery GI Bill to any eligible 
veterans enrolled in an approved program of education or 
training that leads to employment as an operator of a 
commercial motor vehicle.
    Current law only provides such accelerated payments for 
approved training programs that will lead to employment in the 
high-technology sector. I do not believe we should limit the 
range of opportunities available to our veterans and my bill 
will take a step further in expanding that opportunity.
    My provisions would expand accelerated payment to the 
Montgomery GI Bill benefits to eligible veterans seeking 
employment in the high-demand field of commercial trucking as 
you heard Congressman Boozman mention earlier.
    Many CDL training courses are short term and require up-
front payment of tuition and, thus, do not conform with the 
current Montgomery GI Bill payment system of $1,075 per month 
over 36 months.
    In addition, my bill includes an important provision that 
would exclude benefits under the Montgomery GI Bill from being 
considered as income for purposes of determining eligibility 
for education grants or student loans under any other 
provisions of Federal law.
    Current eligibility rules for receiving certain student 
Federal financial aid programs include Montgomery GI Bill 
payments in the calculation of resources. In other words, what 
this provision is saying is that we should not penalize our 
veterans for taking advantage of this earned benefit.
    Madam Chairwoman, easing the transition of our military 
personnel back into civilian life is a responsibility our 
government must fully embrace. I believe my bill takes a step 
in the right direction.
    I would like to thank you once again and Ranking Member 
Boozman for your leadership on this issue and hopefully we will 
be able to move this legislation to the full Committee and 
ultimately on the floor so we can help our veterans in this 
great Nation of ours.
    With that, I will answer any questions.
    [The statement of Mr. Michaud appears on p. 29.]
    Ms. Herseth Sandlin. Thank you, Mr. Michaud.
    At this time, I would like to recognize Mr. Donnelly of 
Indiana for any opening statement he may want to offer, and any 
questions that he has for our colleague at this time.
    Mr. Donnelly. Thank you very much, Madam Chairman.
    I would just like to thank my fellow Member for providing 
such good legislation. When we know that it is very, very 
difficult sometimes to make ends meet and then to look at a 
situation where you are trying to improve and have a career and 
then you find out that the tuition cost is up front, what this 
does is it provides the veteran with that opportunity.
    And so, Mr. Michaud, I will fully support your legislation 
and am very proud for the opportunity to vote for it when it 
comes on the floor of the House. Thank you.
    Ms. Herseth Sandlin. Thank you, Mr. Donnelly.
    I would now recognize the Ranking Member for any questions 
he may have of Mr. Michaud.
    Mr. Boozman. I do not have any questions. I do appreciate 
you working very hard on this legislation.
    I have really enjoyed working with a number of different 
projects and you have shown great leadership. There is a lot of 
difference in this and leading the Health Subcommittee and 
trucking, but it is all about trying to figure out how we can 
use the tools in the toolbox, given more tools so that we can 
allow them to use and utilize the benefits that they have 
earned.
    And I think your bill really goes a long way in doing that 
from an educational standpoint. So, again, I just appreciate 
you working hard on it and hopefully all of us working 
together, we will get it signed into law. Thank you.
    Mr. Michaud. Thank you very much. I really appreciate that.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    I would now like to recognize the gentleman from New York, 
Mr. Hall, for any opening statement or questions he may have.
    Mr. Hall. Thank you, Madam Chair, Ranking Member.
    And, Congressman, I appreciate your being here and thank 
you for the legislation that you have submitted which I 
wholeheartedly support. And I just have a couple questions to 
ask you, if you have been approached by anybody to consider 
expanding the scope of the legislation.
    Mr. Michaud. No one specific as far as other Members of 
Congress, but that is something I am definitely open to. I 
think we have to provide whatever opportunities that we can for 
our men and women who want to apply for the Montgomery GI Bill. 
So I would definitely be open to expanding it.
    Mr. Hall. That was my second question. So you already 
answered it.
    And I yield back. Thank you.
    Ms. Herseth Sandlin. We appreciate that, Mr. Michaud. I 
want to echo the sentiments of others on the Subcommittee for 
your leadership and your tenacity and your openness to looking 
at other sectors that may make as much sense as those that have 
been authorized previously, as well as the opportunities that 
you have identified that exist within the commercial trucking 
industry.
    We will look forward to working with you further as we look 
at accelerated education benefits payments both as it relates 
specifically to the way the bill is currently drafted and 
working with you as we consider any amendments either at the 
Subcommittee level or as it makes its way to the full 
Committee.
    Thank you very much. We appreciate your time.
    Mr. Boozman. Madam Chairwoman.
    Ms. Herseth Sandlin. Yes.
    Mr. Boozman. Could I just ask one thing of the witness?
    Ms. Herseth Sandlin. Of course.
    Mr. Boozman. Mr. Michaud, do you have a cost estimate just 
for the trucking aspect?
    Mr. Michaud. Just for the trucking estimate, it is 
estimated that for a 10-year period, it is approximately $6.6 
million over 10 years. That is one thing I think we will have 
to look at. How we expand it is the additional cost that that 
might be. So I think this is low cost for the benefit that it 
will provide.
    Ms. Herseth Sandlin. Thank you, and we appreciate your 
testimony.
    Mr. Michaud. Once again, I want to thank you, Madam 
Chairwoman, and the Committee for allowing me to speak this 
afternoon. Thank you very much.
    Ms. Herseth Sandlin. Thank you.
    We now invite panel two to the witness table. On our second 
panel of witnesses, we will hear from Mr. Chris Burruss, 
President of the Professional Truck Driver Institute; Mr. Rick 
Weidman, Executive Director for Policy and Government Affairs 
for Vietnam Veterans of America; and Mr. Ron Chamrin, Assistant 
Director of Economic Commission for the American Legion.
    Mr. Burruss, we will start with you. I would like to thank 
you all in advance for your testimony and we appreciate you 
being here. You are recognized for 5 minutes.

  STATEMENTS OF CHRIS BURRUSS, PRESIDENT, PROFESSIONAL TRUCK 
      DRIVER INSTITUTE, AND PRESIDENT, TRUCKLOAD CARRIERS 
ASSOCIATION, AND NORTH AMERICAN TRAINING MANAGEMENT INSTITUTE; 
     RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY AND 
GOVERNMENT AFFAIRS, VIETNAM VETERANS OF AMERICA; AND RONALD F. 
  CHAMRIN, ASSISTANT DIRECTOR, ECONOMIC COMMISSION, AMERICAN 
                             LEGION

                   STATEMENT OF CHRIS BURRUSS

    Mr. Burruss. Thank you, Madam Chairwoman, Ranking Member 
Boozman, and Members of the Subcommittee. My name is Chris 
Burruss, President of the Truckload Carriers Association, 
President of the North American Training Management Institute, 
as well as the Professional Truck Driver Institute, which is 
what I am here today to represent.
    Ms. Herseth Sandlin. Could you pull the microphone just a 
little bit closer to you? Thank you.
    Mr. Burruss. I do not have a hard time.
    Ms. Herseth Sandlin. There you go.
    Mr. Burruss. People can hear me pretty well, but I 
apologize for that.
    I am pleased to be here on behalf of PTDI on an issue that 
it should be no surprise is very near and dear to our hearts in 
the industry. And having served in the Marine Corps for five 
years on active duty, I understand the time that a veteran 
spends trying to reenter the civilian workforce and it can be a 
time that is full of a lot of uncertainty and it can be an 
extremely stressful time for the veterans.
    So I applaud the Subcommittee for trying to help out the 
veterans enter the workforce in a steadfast manner.
    As a matter of background, the Professional Truck Driver 
Institute was established by the trucking industry in 1986. And 
since that time, PTDI has become the Nation's foremost advocate 
of standards and professionalism for entry-level truck drivers.
    This national not-for-profit organization's goal is to 
advance truck driver training proficiency, safety, and 
professionalism among drivers. PTDI serves as an independent 
agent for voluntary certification of entry-level commercial 
driver training.
    It is the truckload segment of the trucking industry that 
is facing a critical shortage of qualified drivers. In a little 
more than a decade, the demand for truck services will increase 
by more than 30 percent, which means that the trucking industry 
will transport 3.3 billion tons more freight than it carries 
today.
    In order to accommodate this higher demand, the number of 
the Class A trucks will increase by 32 percent, putting an 
additional 1 million trucks on the Nation's highways. This 
equates to needing that same amount of drivers in order to move 
the freight.
    The American Trucking Association has reported that between 
the years of 2004 and 2014, the size of the white male 
population, which is a key demographic for the trucking 
industry, will decline by 3 million people.
    Further, Global Insights projection of trend growth for the 
potential supply of and demand for long-haul, heavy-duty truck 
drivers indicates a widening imbalance during that time period.
    Currently there is already a shortage of long-haul truck 
drivers that we estimate to be at 20,000 today and that is to 
haul the freight as it exists in today's society.
    Having grown up in the trucking industry and having worked 
in this industry for 18 years, one of the key critical issues 
that we have is being able to attract and qualify drivers for 
our industry.
    The national average tuition for professional truck driver 
training is on average about $4,000 a year or per course and I 
emphasize that that is just an average. And driver training is 
essential and it needs to be taught by a reputable truck 
driving school in order for the driver to obtain the knowledge 
and the skills necessary to successfully pass the CDL 
examination.
    For the prospective truck driver student who has the means 
to finance his or her education, then this is not really an 
issue. However, for the student or the veteran in this case who 
would like to attend a truck driver training school but does 
not have the means, financing for his or her education can be 
daunting and often, quite frankly, a disappointing task.
    These students in many cases must apply for high-interest 
personal loans, some of which are turned away due to poor 
credit history. Others have to weed themselves through the 
Federal bureaucracy process to find alternative funding 
sources, and usually these come in the way of partial or full 
Federal grant funds.
    Under the current MGI Bill or the GI Bill Program, veterans 
may receive a maximum monthly education benefit. Most truck 
driving schools, through their financial aid office, then 
submit those to the VA or submit their DD-214 to the VA. And 
from that point, it can take upward of 45 days before the 
veteran receives its first GI Bill check.
    Schools that work with veterans report that there is a 
tremendous lag time between payment and services rendered. By 
the time the veteran receives his or her first check, the 
student may have completed one-half of his or her $4,000 worth 
of training, depending on the school that they select.
    Public, private, or carrier-based truck driving schools do 
not typically operate on a semester-based system. More or less, 
they operate on a rolling schedule with new enrollments and 
classes beginning every few weeks.
    For a school that has been qualified by the VA to receive 
MGI Bill educational benefits, the current VA funding mechanism 
through which the school receives payment is far from 
efficient.
    Upon the veteran student's completion of the 2- to 3-month 
truck driver training program, the school may have collected 
approximately 2 to 3 thousand dollars of the MGI Bill benefit 
moneys of the 4 thousand in tuition owed. Because the truck 
driver training school has no more control over the 
distribution of the funds themselves, when or whether the 
school will receive full tuition payment can create a concern 
for all parties involved.
    There are a few industries where an individual with a high 
school diploma can enter a profession with only 4 to 6 weeks of 
training, to enter a profession which is unlikely to experience 
any downsizing, and offers them an entry-level possible salary 
of between 42 and $45,000 a year. However, once trained, these 
positions can enable a veteran to make salaries upward of 60 to 
$100,000 or more.
    According to most truck driving schools, the reasons they 
like to recruit veterans is simple. Former military personnel 
make some of the best students and have higher training 
graduation rates than their civilian counterparts.
    From the trucking company's perspective, veterans have some 
of the key characteristics that they are looking for, 
leadership, respect for procedures, integrity, and teamwork. 
And these are all characteristics that arguably are invaluable 
to all employers, but particularly in the trucking industry.
    Additionally, most veterans, particularly those who have 
been recently separated from the Armed Services, are able to 
pass the drug and alcohol testing requirements, the physical 
examination requirements, and may have a good civilian driving 
record.
    Veterans whose military occupational specialty or MOS 
involved heavy truck driving as a military profession, then 
truck driving in the commercial environment may be a natural 
career path for them in civilian life. Many PTDI schools have 
addressed this by developing special evaluations for veterans 
reentering the workforce with their military CDL.
    In closing, Madam Chairwoman, I would like to ask that the 
Subcommittee join PTDI and TCA in support of Congressman 
Michaud's bill, House Resolution 1824. Our veterans looking for 
a second career deserve, I think, our support.
    As an industry projected to add substantial numbers of new 
jobs to the economy, the transportation industry and PTDI is 
interested in working with you to address the skill shortage 
and workforce challenges.
    And, last, as an industry that has been recognized in the 
President's high-growth job training initiative at the 
Department of Labor, we look forward to working with the 
Subcommittee to further this initiative.
    And with that, Madam Chairwoman, this concludes my remarks, 
and thank you.
    [The statement of Mr. Burruss appears on p. 30.]
    Ms. Herseth Sandlin. Thank you very much, Mr. Burruss.
    Mr. Weidman, we would now like to take your testimony. You 
are recognized for 5 minutes.

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Madam Chairwoman, thank you for holding this 
hearing.
    Mr. Boozman, Mr. Donnelly, and Mr. Hall, also thank you for 
being here. We know there are multiple demands on all of your 
time to be many different places.
    In 1994, I worked for then Governor of New York, Mario 
Cuomo, and we put together a GI Bill poster that is displayed 
in these Committee rooms and has been for some time. And people 
said what does that have to do with veterans' employment.
    We went back and looked at the course of the GI Bill in its 
first 50 years and discovered that 53 percent of the GI Bill 
had been used for direct vocational education, either farm 
education or an apprenticeship or on-the-job training. That did 
not count those who got a degree and then went on to become 
doctors, lawyers, attorneys, businessmen, all the myriad of 
professionals for which a Bachelor's Degree or an Associate's 
Degree was a prerequisite.
    It is, in fact, the crux event of the readjustment process 
is the ability to obtain and sustain meaningful employment or 
one's own self-employment. That is the flash point of the 
readjustment process for the young men and women coming home, 
whether they are demobilized Guard and Reservists or our 
active-duty folks returning home.
    I thank you very much for having this hearing and 
particularly for Mr. Michaud's bill, but it is not limited to 
that. The nature of adult learning within our society, and 
these are adults when they come home even if they are still 
only 21, 22 years old, you come home with a maturity far beyond 
your years, and these are folks who are not going to sit in the 
classroom by and large and do the traditional 4-year route. 
Those who wish to get a Bachelor's Degree will do so.
    This Committee under Mr. Boozman's leadership and with your 
active assistants moved several years ago to change the law in 
order to accommodate entrepreneurial training. Unfortunately, 
the vessel within which that was delivered was not changed. The 
State Approving Agencies are still bound by the laws and 
regulations of looking at classroom hours in a more traditional 
classroom and, therefore, many of the Small Business 
Development Centers have had a very difficult time.
    It is not limited to the Small Business Development Centers 
(SBDCs) and entrepreneurial training, but I would suggest that 
it is something that will affect across the board.
    The accelerated payment is necessary for the payment up 
front no matter what format that training or education is 
delivered in. And oftentimes it is not going to be X number of 
hours sitting in a classroom en masse. It is just simply not 
going to happen that way.
    And, therefore, if the attempt is on the part of the 
Congress to aid and abet and assist those young men and women 
coming home in order to get the training that is going to 
directly impact on either their career or their ability to 
succeed, not just get in the business, but to succeed in 
opening their own micro business or small business, then we are 
going to have to rethink the set of laws and regulations which 
we give to the State Approving Agencies in order to do their 
job of maintaining the quality and making sure that our people 
are not ripped off.
    That is the main thrust of my statement here today, and I 
certainly look forward to working with both sides of the aisle, 
both you, Madam Chairwoman, and Mr. Boozman and others to come 
up with a new paradigm that will not only work for 
entrepreneurial training and small business training, but will 
also work for many other high-tech occupations and it fits with 
the direction in which adult learning currently is going in 
this country to be able to assist these folks.
    I would just mention two last things, is that VVA supports 
extending the current rates of payments for veterans who are 
enrolled in apprenticeship. Apprenticeship in many States 
unfortunately has fallen into great disuse and it needs to be 
restored.
    And as people make too much about how folks are no longer 
in blue collar professions, but moving into white collar. Try 
and find a plumber sometime. You want your kid to always be 
able to earn a living. Get him or her into doing plumbing, as 
an example, or electrician, a skilled electrician, in many 
parts of the country.
    Last but by no means least, the SAAs are continuing to have 
to fight a battle to have the resources to do the job, what we 
need to have done in each of the 50 States plus the other three 
jurisdictions. I would encourage you strongly to take the steps 
necessary to make sure that we do not have to go through this 
battle every year and to ensure that the resources are provided 
in order to provide a framework.
    VVA strongly believes that the reason why the Montgomery GI 
Bill has worked so well now for over 60 years is that the 
veteran decides. It is based essentially on a free enterprise 
system and the money follows the veteran. But within the 
framework, you have got to make sure that people are protected 
against fly-by-night folks and we need the SAAs to have the 
adequate resources to do their job so that the free enterprise, 
if you will, can work within the context of the approved 
entities and programs.
    I thank you very much. I see I am over time, and thank you 
for indulging me, ma'am. And again, thank you for having this 
important hearing.
    I have said it often, but I will repeat it. Most of the 
important work of this Committee does not happen when the big 
lights are on and the place is packed. It happens in hearings 
like this and the hard work where, frankly, many people are not 
listening and people will never know anybody who is here 
today's name will benefit and have a much better life after 
their service to country in uniform because of the work you do 
here today. And I thank each and every one of you and each and 
every one of your staff persons.
    Thank you, ma'am.
    [The statement of Mr. Weidman appears on p. 33.]
    Ms. Herseth Sandlin. Thank you, Mr. Weidman, for your 
insightful testimony and recognition of the hard work of all 
those on the Subcommittee and our dedicated staff. I appreciate 
that very much.
    Mr. Chamrin, let us hear from you for 5 minutes, please.

                 STATEMENT OF RONALD F. CHAMRIN

    Mr. Chamrin. Madam Chair Herseth Sandlin, Ranking Member 
Boozman, and Members of the Subcommittee, American Legion 
appreciates the opportunity to share its views on accelerated 
education payments, the impact regarding veterans education.
    American Legion supports granting veterans the options to 
request an accelerated payment of all monthly education 
benefits upon meeting the criteria for eligibility for the 
Montgomery GI Bill financial payments.
    The selection of courses the veterans undergo remain 
exclusively the decision of the individual veteran and all 
earned veterans education benefits should be made available to 
the veterans in support of their endeavors.
    Accelerated education payments allow veterans to achieve 
education goals in the manner that they decide. Binding the 
timeframe on the education payout may restrict education 
options for some veterans.
    American Legion recommends that all GI Bill approved 
courses including the OJT and apprenticeship courses become 
eligible for accelerated education payments.
    American Legion recommends the expansion of Public Law 107-
103 to include but not be limited to survivors' and dependents' 
education assistance, the post-Vietnam era veterans' education 
assistance program, and the Reserve education assistance 
program.
    American Legion is deeply concerned with the timely manner 
that veterans, especially returning wartime veterans, receive 
their education benefits. Annually for the past 6 years, 
approximately 300,000 servicemembers, 90,000 of them belonging 
to the National Guard and Reserve, enter the civilian sector 
and have the ability to use their education benefits.
    Any delay in receipt of education payments can adversely 
affect a veteran's life. There are time restrictions on most 
veteran education benefits. Specifically, the National Guard 
and Reserve must remain in the Selective Reserve to use their 
earned benefits. Every effort should be made to ensure that the 
GI Bill and related veterans education benefits are delivered 
without delay.
    American Legion applauds the initiative of veterans 
entering high-tech fields; however, the type of program 
available for accelerated payments should not be limited. 
Ironically, courses in education are excluded from this 
program. Truck driving, program evaluation, policy, law, 
communication, early childhood education, human resources, 
recreation, and liberal arts are other programs that are also 
excluded.
    American Legion is concerned with the ranges of program 
costs throughout the country. Consideration should be made to 
lower the 200 percent threshold for receiving accelerated 
payments. Not every veteran is destined for college; therefore, 
the GI Bill needs to be more accessible for those veterans with 
vocational aspirations other than college.
    The overall cost of these short-term vocational training 
and licensing programs far exceed the monthly stipend provided 
under the traditional college student for 36 months approach 
and the current GI Bill. Accelerated education payments would 
greatly assist qualified veterans enrolled in an approved 
program of education that leads to employment such as truck 
driving. This expansion would give veterans more educational 
options and a better diversity of vocations.
    Starting in 2001, the total use of education benefits by 
veterans continues to increase. In fiscal year 2006, 
approximately 470,000 individuals received veteran-related 
education benefits. This equates to approximately 3 million 
courses taken by veterans.
    With the increasing number of eligible veterans and 
increasing quantity of discharged veterans, the need for 
assistance and implementation of all elements of veterans 
benefits continue to rise.
    American Legion asserts that due to the frequent call-ups 
of National Guard and Reserve forces, veterans are forced to 
divert from their traditional semester schedule in an attempt 
to finish their programs before the next call-up.
    National Guard and Reserve units are continuously training 
in preparation for war. Leadership development, combat life 
saver, communications, language, airborne and air assault are 
examples of courses that are conducted year round. One in 
particular, leadership development courses, are required for 
any promotion.
    Student servicemembers must choose to either enter these 
courses to advance their military career and better prepare 
them and their units for war or remain at the universities, 
thereby slowing their military advancement progression. 
Accelerated education payments will allow for these individuals 
to enter short-term, high-cost programs that will permit them 
to complete the course within the window between military 
requirements.
    It is important to note that accelerated education payments 
are only available to Chapter 30 benefits. The Reserve 
Education Assistance Program (REAP) beneficiaries and other 
programs are barred from receiving accelerated payments. An 
example is an Operation Iraqi Freedom (OIF) veteran using REAP. 
If she chose to enter a high-cost, short-term program such as a 
teaching certification program, she would only be able to use 
her education benefits at the monthly rate. Furthermore, her 
benefit would only be available to her as long as she remains 
an active member of the Selective Reserve.
    I would like to share the story of Sergeant Bruce Dunlap 
who is currently recovering from devastating injuries at the 
Walter Reed Army Medical Center from service in Iraq. He wishes 
to enter the vocational rehabilitation program and work toward 
becoming a teacher. Bruce eagerly wants to become self-
sufficient and restart his civilian life.
    This amazing and strong person has further expressed his 
desire to begin teaching and after a few years of employment 
enter a Master's program with a more specific focus on advanced 
education. Bruce plans on using his GI Bill to pay for his 
Master's program while simultaneously working as a teacher. He 
would take high-cost, short-term night courses. However, these 
programs are not currently eligible for accelerated payments.
    Sergeant Dunlap's educational plan is not specifically 
unique. Civilians have a similar style of education plans to 
also encompass other fields. What is unique and can never be 
overlooked is that this story is out of a veteran. Specifically 
he is a severely injured veteran that volunteered to enlist in 
the military and serve his country.
    In conclusion, American Legion believes that honorable 
military service combined with improved education and 
vocational training opportunities enhances an individual, 
increases diversity, and betters society as a whole.
    The education is continuous and ever-evolving. The 
diminishment of support for educational opportunities for 
veterans will decrease the ability to recruit new 
servicemembers and unfairly subject veterans to barriers of 
benefits that they have earned.
    It is our obligation to ensure that the earned education 
benefits of America's veterans are actually of value to those 
seeking a nontraditional route to their education.
    The American Legion appreciates the opportunity to present 
this statement of record. I welcome any questions from you, 
Madam Chairwoman, and the Committee.
    [The statement of Mr. Chamrin appears on p. 35.]
    Ms. Herseth Sandlin. Thank you very much, all of you, for 
your testimony. Let me start out with the questions. Mr. 
Weidman and Mr. Chamrin bring up a number of important issues 
as they relate to other sectors, other fields, other programs 
for which accelerated benefit payments may be appropriate, but 
I want to focus initially on the commercial driver's license 
program.
    Mr. Burruss, do you know if there are any States that 
automatically convert a military license into a commercial 
driver's license?
    Mr. Burruss. I do not believe that there are. To my 
knowledge, I do not know of any that do.
    Ms. Herseth Sandlin. Has there been any comparison by your 
institute about the requirements as they relate to the 
standards in the military for conducting that particular 
responsibility versus what the CDL requirements are in the 
programs that are offered in the civilian workforce?
    Mr. Burruss. Yeah. It has been studied. It has been looked 
at. Candidly, somebody coming out of the military can obtain a 
CDL if they can pass a CDL exam, both the written and driving 
portion.
    Currently FMCSA, the Federal Motor Carrier Safety 
Administration, is looking at and will be issuing entry-level 
drivers' training standards in the near future which will cause 
some minimum training standards that all people will have to 
adhere to.
    So in the future, that process is going to be even more 
difficult because now somebody that wants to get in is going to 
have to have some sort of entry-level training. Now, that is 
our assumption. But there are some glaring differences between 
military experience and over-the-road experience in a 
commercial vehicle.
    Ms. Herseth Sandlin. Talk with us a little bit more about 
the types of programs that are offered across the country. You 
were talking about the average cost of a course. You pointed 
out the fact that often these programs are not offered on a 
semester-based system.
    Mr. Burruss. Right.
    Ms. Herseth Sandlin. Are there CDL training courses offered 
at community colleges, vocational technical institutes that are 
on a typical semester basis?
    Mr. Burruss. Not on a semester basis, but there are courses 
that are run through community colleges. Now, that is not to 
say that there are not any longer training programs that do it 
that way. But the majority are on a shorter term that utilize 
vocational education facilities to do it. And they range 
everywhere from those types of schools to the private industry 
schools and the prices range. Usually if it is a public school, 
they are going to be less because they run on a not-for-profit 
basis.
    Ms. Herseth Sandlin. That leads to my next question. Can 
you explain to the Subcommittee why a student might want to 
spend more money on a for-profit program? Are there differences 
between these programs versus the lower-cost tuition that may 
be available for a program from a public institution?
    Mr. Burruss. Well, my answer to that would be there could 
be differences. If they adhere to some sort of a standard, for 
example, the PTDI model, which specifies minimum training 
standards. Now, that does not prevent them from offering more 
expansive training should they choose to do so. But it would 
give them a set of minimum requirements. And if drivers are 
educated to that standard, then there should not be any 
differences between the quality of the driver that is coming 
out of the schools.
    Ms. Herseth Sandlin. Thank you. We may explore some of that 
further, but we may have votes in about 5 minutes. I want to 
make sure we have plenty of time for my colleagues on the 
Subcommittee to pose questions to this panel.
    I would like to recognize the Ranking Member for any 
questions he may have at this time.
    Mr. Boozman. Thank you, Madam Chairwoman.
    I appreciate all of your testimony. I think it is very 
helpful.
    Mr. Weidman, you talked about the fact that we needed a new 
paradigm. And when we look at how much life has changed in 
every aspect, whatever business you are in, whether it is going 
to the gas station now and sticking your credit card in or 
using it at Sonic in Arkansas, where I like to hang out, you 
stick your credit card in there. It is just so different.
    We in government find it is very difficult for us to keep 
up with the new patterns and education has changed 
dramatically.
    Mr. Chamrin, you mentioned the plight of the soldier that 
has lots of downtime, he is rehabbing, he would like to do some 
online courses. Those courses are just common now.
    So we really do have to get on the stick and get more tools 
in the toolbox for these individuals as they seek employment.
    So I really do not have any specific questions. Again, I 
just appreciate the testimony. I think it was very, very 
helpful.
    The other comment that you made, and I think it is a good 
thing and it creates problems also, is that these individuals 
that are coming back after the experiences that they have had 
overseas and even the experiences that they had, the men and 
women stationed here, they really are very mature compared to 
how they left. And it is difficult to go back doing the same 
thing that they were doing. And they are positions of 
leadership, tremendous responsibility, more so than the average 
person will ever experience in some cases, and then all of a 
sudden to be thrust back. So, again, that is just another 
reason that hopefully working together we will get this sorted 
out.
    Thank you, Madam Chairwoman.
    Ms. Herseth Sandlin. Thank you, Mr. Boozman.
    Mr. Hall, do you have questions for the witnesses?
    Mr. Hall. Just quickly I do. Thank you, Madam Chair.
    And thank you all for your testimony.
    I wanted to ask Mr. Burruss, do you know of any projections 
on how many certified truck drivers might emerge from the 
veterans' community if the transportation industry were to be 
included in the scope of accelerated education benefits?
    Mr. Burruss. I do not have that number, no.
    Mr. Hall. Do you know of any other industries that have 
encountered similar roadblocks such as high tuition costs that 
might have prevented veterans from seeking employment in that 
field? And I guess it could go to Mr. Weidman as well.
    Mr. Weidman. I am sorry.
    Mr. Hall. I am curious of what other industries, what other 
educational paths to those industries have encountered similar 
roadblocks such as high tuition costs or the spread out 
duration of payment of tuition that might have prevented 
veterans from seeking employment in that field.
    Mr. Weidman. There are many of the high-tech fields, number 
one. Number two is entrepreneurial training is a good example, 
Mr. Hall. The SBDC in Albany basically has given up getting 
some of their courses approved and so they do not even focus on 
the GI Bill anymore.
    What they do is people want to take their course, they come 
and pay full freight, whether they are service-disabled vets or 
a veteran-owned business or not. And we need to find a 
different way to approach this, if I may suggest, and so it is 
so much of training today you buy a package and you do a lot of 
it on your computer and then you have consultation either 
online or via telephone and some in-person meetings.
    So the traditional thing where you gather all the students 
in a cluster for X number of hours over a given number of weeks 
just simply does not hold true for adults. And that is what I 
mean when I say that we need a new paradigm that also protects 
the individual from being ripped off by fly-by-nights.
    Mr. Hall. Thank you, Mr. Weidman.
    And to Mr. Chamrin, I just wanted to ask a three-part 
question. Does the Legion support the inclusion of commercial 
driving license programs in the accelerated payment provision? 
Does the Legion support expanding that accelerated payment 
provision to include all short-term, non-degree programs and/or 
should we give the veteran complete freedom to choose the 
program of interest?
    Mr. Chamrin. Congressman Hall, the American Legion does 
support that GI Bill benefits be used for commercial driver's 
license and truck driving training. And the American Legion 
does believe that all short-term, high-cost elements be 
eligible for GI Bill education benefits.
    What was your last question again?
    Mr. Hall. Should we give the veteran complete freedom to 
choose the program of interest?
    Mr. Chamrin. The American Legion believes that all 
veterans, they have earned their education benefits and 
whatever course of study that they choose to use, we should 
allow them to do that.
    Mr. Hall. Thank you. I agree with that also.
    And, Madam Chair----
    Mr. Weidman. Mr. Hall, may I----
    Mr. Hall. Jump in on that if you prefer.
    Mr. Weidman. As long as the program is on an approved menu 
with a paradigm approved by the Congress within the context of 
the law because there are unscrupulous folks out there.
    And Mr. Bombard who is going to be testifying on the next 
panel can tell you unbelievable stories about stuff that has 
gone on in the five burroughs to the south of you about 
unscrupulous folks who have set up programs that look great on 
the surface but turn out to really be shams.
    Within the context of having an approved program, we do 
believe that it ought to be freedom of choice. That is what has 
made the strength of the GI Bill and made it the most 
successful social program ever is that freedom of choice.
    I would add something else, is a number of years ago, 
veterans community and a variety of folks, we got to working on 
trying to convert military skills into civilian skills. And the 
only one that really made it was emergency medical technician 
so that people when they complete training at Great Lakes if 
they are in the Navy or if they complete training at Fort Sam 
Houston if they are an Army medic automatically are offered an 
EMT certification course which is accepted in all 
jurisdictions.
    There is no reason why CDL could not do the same. And if 
you wanted to take education beyond that in order to be more 
competitive to the best of the carriers out there, and it does 
make a difference which school you go to as to which carrier is 
going to pick you up, that would be something you can do beyond 
that.
    But we have not failed and the Veterans Corporation has 
totally failed in the efforts given to the Congress in 1999 to 
look at this whole question of conversion of military skills 
into civilian certification.
    Mr. Hall. Thank you very much, and I yield back.
    Ms. Herseth Sandlin. Thank you, Mr. Hall.
    I would agree. I think there is a balance here that we can 
achieve so long as we are giving our State Approving Agencies 
adequate resources to do both. The veteran should have the 
freedom and the choice. But, like many other provisions that go 
along with an earned benefit, a government benefit, we need 
some consumer protection provisions.
    I do think that goes to the issue of the State Approving 
Agencies that I want to get to in a minute. I first want to 
explore one other thing with Mr. Burruss.
    Mr. Hall asked if you have any projections on how many 
certified truck drivers would emerge if we were able to 
accomplish the accelerated education benefits for that 
training. I know you do not have those projections, but you had 
mentioned earlier on when I asked the question about the 
military license and automatic conversion for the commercial 
driver's license. Have you tracked that at all, about how many 
come out of the military that actually go in and take the 
written and driving part of the exam? Have you tracked those 
numbers?
    Mr. Burruss. No, we do not.
    Ms. Herseth Sandlin. Okay. Mr. Weidman, we have somewhere 
in the neighborhood of 5 to 7 minutes left before a vote which 
means we have to leave momentarily. We will be coming back for 
the third panel and we will submit additional questions if we 
have them for this panel. You do not have to stay if you do not 
want to.
    On the Small Business Development Centers, you were talking 
to Mr. Hall, and Mr. Weidman, about how up in Albany they have 
given up on getting the State Approving Agencies to approve 
these programs. Where else in the country have Small Business 
Development Centers been more successful in getting State 
Approving Agencies to approve their programs? Anywhere? If so, 
have these been best practices and have they shared the know-
how in different parts of the country with going through that 
process?
    Mr. Weidman. Any place where they offer a more traditional 
classroom setting. In other words, you have X number of hours 
in the classroom, in a group setting, if you will.
    The problem here has to do with any time you change the 
room number, any time you change the instructor, you have to go 
through the process all over again and some of the SBDCs just 
say we are not going to play that game because it is not a 
major part of their income stream nor their clientele. It is 
not the majority by any stretch of the imagination.
    So, you know, they want to do things for vets, but they are 
not going to stand on their head every time they have to change 
a room number or change an instructor who is an approved 
instructor, particularly if it is for something like the next 
thing or a fast-track course where there is already a certified 
instructor.
    Ms. Herseth Sandlin. Mr. Boozman, do you have followup 
questions for this panel, so we will ask them to stay, since 
we----
    Mr. Boozman. No.
    Ms. Herseth Sandlin. We may, in followup conversations with 
staff as well, have additional questions that we did not get 
to. Based on your testimony and answering some other questions, 
some of them may have been adequately addressed, but there may 
be a few others. We will submit those to you in writing and 
perhaps again work closely with you to get those responses as 
we investigate this area further.
    We are going to go down to vote now and then we will come 
back for the third panel. We hope that you will be able to 
stay. But if not, we understand that, too, and we will see you 
soon, I am sure. Thank you.
    Mr. Burruss. Thank you.
    Mr. Weidman. Thank you, ma'am.
    [Recess]
    Ms. Herseth Sandlin. All right. We will get back under way. 
I know people have places to be later this afternoon.
    I do want to thank our second panel for being here and 
testifying.
    I will now introduce our third panel and the witnesses are 
Mr. James Bombard, Chairman of the VA's Veterans Advisory 
Committee on Education, and Mr. Keith Wilson, Director of 
Education Service for the U.S. Department of Veterans Affairs. 
Thank you both for being here once again.
    We will start with you, Mr. Bombard. We appreciate your 
testimony. You are recognized for 5 minutes.

   STATEMENTS OF JAMES BOMBARD, CHAIRMAN, VETERANS ADVISORY 
 COMMITTEE ON EDUCATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
  AND KEITH M. WILSON, DIRECTOR, EDUCATION SERVICE, VETERANS 
  BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

                   STATEMENT OF JAMES BOMBARD

    Mr. Bombard. Chairman Herseth Sandlin, Ranking Member 
Boozman, and Members of the Subcommittee on Economic 
Opportunity, I am pleased to appear before you today on behalf 
of the Department of Veterans Affairs Advisory Committee on 
Education to provide the Committee's view on how the GI Bill 
can be modified to expand the accelerated benefit program 
beyond the high-technology industry.
    I have had the pleasure of working with the Members of the 
staff and the Committee for many years as the Committee has 
worked to improve the GI Bill.
    In general, much has been done in recent years to provide 
servicemembers, veterans, and other eligible persons with 
greater opportunities to use the education and training 
benefits to which they are entitled, yet the nature of today's 
global economy demands that we continue to strive to help our 
workforce, especially our veterans, to gain new knowledge and 
learn new skills in order to maximize the contributions to the 
Nation.
    It is the VACOE's view, the Advisory Committee's view, that 
even with the recent increases of the money benefit, some 
veterans find it cost prohibitive to enroll in an institutional 
program that will provide the knowledge and skills necessary 
for them to reach their occupational or professional objective.
    Removing the current restriction that requires enrollment 
in a program that leads to employment in high-technology 
industries would allow greater opportunities for more veterans 
to use the GI Bill.
    Additionally, we recommend revising the law to limit the 
length of the program that qualifies for accelerated payment to 
two years or less.
    The discussion that led up to the enactment of the original 
legislation centered on short-term, high-technology courses. 
The language that was enacted does not impose any limitation on 
length. Therefore, all high-tech programs including many four-
year degree programs qualify.
    We also recommend using the basic rate because veterans who 
take advantage of the $600 buy-in or the 34-30 conversions or 
our recipients of kickers and bonuses or any combination 
thereof can be penalized by having their additional monthly 
payment disqualify them for accelerated payment under the 200 
percent calculation.
    Processing. Processing time for accelerated payment 
allowances is on average approximately eight weeks for original 
and two weeks for supplemental claims. With regard to adequacy 
of this time frame, it may pose a problem in short-term, high-
cost courses.
    Claims processing is a complicated, time-consuming endeavor 
which could be more efficient and more effective with the 
adoption of a Total Force GI Bill. The recommendation that the 
Advisory Committee made addressed some of the claims processing 
issues.
    It is the VACOE's view that the accelerated payment 
provision should be restricted to non-degree, two years or less 
programs. A good example where the accelerated payment 
provision needs to be expanded is the commercial driver 
training program.
    Nationally truck driver programs are relatively expensive 
because of the complexity of today's equipment and the demands 
of the new licensing requirements for specialized loads. An 
opportunity to use the accelerated payment provision of the law 
would allow more veterans to pursue their chosen occupation.
    A word of caution. By expanding eligibility for accelerated 
payment, the opportunity for abuse increases. Therefore, the 
DVA and particularly the State Approving Agencies will have to 
be evermore vigilant.
    In summary, the Veterans Advisory Committee supports 
expanding the accelerated payment provisions of Section 3014A, 
Title 38 of the U.S. Code to include short-term, two year or 
less, high-cost, non-degree programs.
    As aforementioned, the Committee also understands there 
will be a need for increased vigilance on the part of the 
Department of Veterans Affairs and the State Approving Agencies 
to limit waste, fraud, and abuse.
    In closing, Madam Chairman, I would like to thank you for 
the opportunity to present the views of the Advisory Committee 
on Veterans Education regarding accelerated payment provisions 
of Title 38.
    Thank you for your efforts to make improvements to the 
educational and training programs that have been made available 
to those who defend the freedoms that we all so thoroughly 
enjoy. I would be happy to respond to questions.
    [The statement of Mr. Bombard appears on p. 37.]
    Ms. Herseth Sandlin. Thank you very much.
    Mr. Wilson, you are recognized for 5 minutes.

                  STATEMENT OF KEITH M. WILSON

    Mr. Wilson. Thank you, and good afternoon, Chairwoman 
Herseth Sandlin, Ranking Member Boozman, and Members of the 
Subcommittee.
    I appreciate the opportunity to appear before you today to 
discuss VA's accelerated payment programs. My testimony will 
provide an overview of the accelerated payment benefit and the 
courses of study that qualify for accelerated payment.
    Under Section 3014A, Title 38, a Montgomery GI Bill 
participant pursuing high-cost courses leading to employment in 
a high-technology occupation and a high-technology industry has 
the option of receiving an accelerated benefit payment. This 
optional lump sum accelerated benefit payment covers up to 60 
percent of tuitions and fees.
    Currently accelerated payment is only available under the 
Montgomery GI Bill Active Duty. VA makes accelerated payments 
for one term, quarter, or semester at a time. However, if the 
program is not offered on a term, quarter, or semester basis, 
an accelerated payment is made for the entire program.
    To qualify, the individual must be enrolled in a high-
technology program and must certify that he or she intends to 
seek employment in a high-technology industry as defined by VA.
    In consultation with the Department of Education, VA has 
defined the following industries as high technology: 
Biotechnology, life sciences technology, opto-electronics, 
computer and telecommunications, electronics, computer 
integrated manufacturing, material design, aerospace, weapons, 
and nuclear technology.
    In addition, the program of study undertaken must have a 
sufficiently high cost. The tuition and fees for the program of 
education when divided by the number of months in the 
enrollment period must exceed 200 percent of the monthly rate 
of basic educational assistance allowance otherwise payable.
    If these criteria are met, the individual will receive an 
accelerated payment in lieu of the monthly MGIB-Active Duty 
benefit that he or she would otherwise receive for the covered 
period.
    Accelerated payments are granted for a variety of courses 
of study and for both degree and non-degree programs. The 
following courses of study may qualify for accelerated 
payments: Life sciences or physical sciences, engineering, 
mathematics, and computer specialties, or management.
    Short, non-degree courses in these areas may also qualify 
for accelerated benefits if they are approved for VA benefits 
by the State Approving Agencies.
    Since the accelerated payment program's inception in fiscal 
year 2003, we have received 4,808 accelerated payment claims 
through March 31st of this year. We have granted 4,045 of those 
claims and paid almost $26 million in accelerated payments. The 
average payment amounts to about $6,400.
    We believe the utilization of the accelerated payment 
program indicates that this provision of MGIB-active duty has 
filled a niche in assisting eligible individuals with their 
adjustment to civilian life and prepare for the critical roles 
in the 21st century economy.
    Madam Chairwoman, this concludes my statement. I would be 
pleased to answer any questions you or any Members of the 
Subcommittee may have.
    [The statement of Mr. Wilson appears on p. 38.]
    Ms. Herseth Sandlin. Thank you, Mr. Wilson.
    Your predecessor, Mr. McCoy, testified a couple of years 
ago on the version of the bill that Mr. Michaud had introduced 
in the previous Congress. I know that at that time, in his 
testimony he opposed Section 1 of the bill, but in terms of 
Section 2 specifically, I believe he supported Section 2 which 
deals with excluding VA educational benefits from consideration 
as available assets for determining eligibility under Title IV 
resources.
    Given that the ``Higher Education Act'' is being 
reauthorized, can you update us on any discussions you had with 
the Department of Education to include this language in the 
Administration's reauthorization proposal?
    Mr. Wilson. We have not had specific discussions with the 
Department of Education on this provision. Our position 
continues to be the same as it was in 2005. However, we do 
support that.
    Ms. Herseth Sandlin. What about Section 1?
    Mr. Wilson. Section 1, our views continue to be the same as 
they were in 2005. Accelerated payment is an outstanding 
provision and there is no doubt that it fills a niche for 
individuals.
    The concern that we have is creating a situation where some 
veterans are disadvantaged and others are not because of the 
type of program that they want to pursue. We would like to see 
accelerated pay opened up to all individuals so that it can be 
used equally and find a method of defining that so that all 
members that use our benefits can take advantage of it.
    Ms. Herseth Sandlin. Are you supportive of a much more 
expansive kind of benefit which follows the veteran rather than 
program by program adding to the list of those that are 
eligible for accelerated payment?
    Mr. Wilson. That is correct. And if I can give one example 
as to why we prefer to pursue that method. The reason 
accelerated pay began in the first place was for veterans to 
take advantage of at the time the booming technology industry. 
Well, since the dot com bust, we really do not have the demand 
in that area that we have had in the past.
    So what we would like to do is pursue an approach that 
would allow us more dynamics, more flexibility so that we do 
not get into a situation where we are trying to second guess 
where the next push might be.
    Ms. Herseth Sandlin. I appreciate that position, especially 
as it relates to the flexibility of administering accelerated 
payment for the current list of degrees and programs that are 
eligible.
    If that is the position and that flexibility would probably 
require the resources for the State Approving Agencies, are 
there any cost estimates that you have done for us to be able 
to achieve that in the short term?
    Mr. Wilson. We have not gone that far on any of that, no.
    Ms. Herseth Sandlin. I think that is probably an objective 
that would find a lot of consensus. It recognizes the 
importance of those benefits for the veteran depending on which 
program he or she would choose to pursue and that type of 
flexibility. I do not want to speak for Mr. Michaud, but given 
some of the constraints that we face in the short term as it 
relates to budgetary matters, how can we at least be responsive 
to an area where there is a high need that seems to match well 
with some of the skills and interests of those coming back and 
clearly the transportation sector being one where there will 
most likely continue to be a demand?
    Are you more worried about the precedent that this sets, 
that we do it one by one because realistically the feasibility 
of doing what you have proposed in the short term may pose more 
challenges to us than perhaps the $6.6 million over 10 years of 
what Mr. Michaud is proposing?
    Mr. Wilson. The precedent that it would set would be an 
issue, but I would put it in the perspective of ease of use. 
Our programs are complex enough as they are right now. I would 
like to be able to move forward in a manner so that the users 
of the program clearly understand when they can use something 
and when they cannot. And that is difficult for them to fully 
grasp a lot of times right now. Obviously we would be more than 
happy to work with the Subcommittee on the details of this.
    Ms. Herseth Sandlin. I think that is important. The Ranking 
Member and I were visiting a bit as we were heading over to 
vote. I think that you would find a lot of interest from us and 
the staff with whom we work, to sit down and to look at what 
you are proposing in terms of this different approach and what 
that means for the other entities involved, particularly the 
State Approving Agencies in light of the testimony we heard 
from the second panel.
    We will come back for another round of questions, but I 
would now like to recognize the Ranking Member for questions he 
may have for the panel.
    Mr. Boozman. Thank you.
    Mr. Bombard, you mentioned kind of the fact that this 
legislation was obviously for non-degree, 2 year or less type 
training. Have we slipped into the people using it for 4-year 
programs? What kind of scenarios are you seeing?
    Mr. Bombard. Well, the original intent was for high tech as 
Mr. Wilson has indicated. However, when they wrote the 
legislation, the wording was very general and when you 
interpreted it, it opened it up to the traditional 4-year 
programs. And that is how it took place.
    When we made our recommendation and we studied this, it was 
in the context of what was happening and what the Committee 
believed was the right way to go considering both the financial 
situation as well as the situation where you could open up 
waste, fraud, and abuse. It could accelerate waste, fraud, 
abuse. No pun intended.
    And that, overall, the Committee in a perfect world would 
like to see it opened up to everything, but we are not in a 
perfect world. So we thought that we had to make some decisions 
or put some limits on it and that is why we came up with the 
recommendation of the short-term, high-cost, non-degree 
programs.
    Mr. Boozman. So who actually decided the courses? I mean, 
who decided whatever is included now and when was that done, 
Mr. Wilson?
    Mr. Wilson. There was a two-step process in the manner we 
decided this. The first thing that we needed to do was define 
what high-technology industry meant. We found out there was no 
government-wide definition of that. So we worked with the 
Department of Education and the National Science Foundation, 
both of which had lists about ten categories long that they 
used for a working understanding of what high-technology 
industry was. We combined those lists and used those as our 
high-technology industries.
    The second step was the high-technology courses that are 
required. It is kind of a two-step process when you seek 
approval for these. And for the second, we relied on the SAAs 
for the background information on that and they used the 
classification of instructional programs which is the 
Department of Education publication, kind of an industry 
standard that classifies programs. And they sat down and 
decided the list of programs within the high-technology 
industry that would qualify.
    Mr. Boozman. And when was that done?
    Mr. Wilson. That was 2002, 2003.
    Mr. Boozman. So we really have not changed anything since 
then as far as what qualifies?
    Mr. Wilson. That is correct.
    Mr. Boozman. Okay. Good. And I have several questions with 
your permission, Madam Chairwoman, that we would like to submit 
for the record.
    [No questions were submitted.]
    Mr. Boozman. But to me, I mean, just that we have not 
updated that, I mean, the law did not specifically say that we 
could not update it, did it?
    Mr. Wilson. No, it did not.
    Mr. Boozman. I thank you, Mr. Wilson. The fact that high-
tech industry was a booming industry then and now it is not, I 
mean, we have to have somebody that forecasts the future and I 
read that in Parade Magazine all the time where they say this 
is what is going to be. And they get that, I am sure, from the 
Labor Department and from industry.
    But I guess, again, that to me illustrates that is it a 
fair statement to say that our men and women that have this 
program, are they lagging behind in their ability to receive 
education compared to other people in business and in college 
or whatever entity as far as their ability to access education? 
Does that make sense?
    In other words, my daughter is in college and she picks up 
hours online. I understand the fraud and abuse stuff and that 
has to be and, yet, we have kind of gone through a lot of that 
in the sense that those things that were very unheard of almost 
a few years ago those things are very prevalent right now.
    Is that a fair statement, if you can make any sense out of 
that?
    Mr. Wilson. I believe I can. If you are asking me whether 
the individuals are disadvantaged right now compared to non-
veterans, I feel I would be speculating if I answered it. I do 
not have enough information.
    Mr. Boozman. What is your gut feeling?
    Mr. Wilson. If you were to compare the veterans to like 
individuals that do not have the means to pay for accelerated 
pay type programs, I would say they are at an advantage. If you 
compare them to people that have the means, I would say that 
they are at a disadvantage. What I do not know is where the 
break is there, are there more or less of either.
    Mr. Bombard. I would concur with that, what Mr. Wilson has 
just stated.
    Mr. Boozman. Okay. Well, thank you all.
    Thank you, Madam Chairwoman.
    Mr. Bombard. I would like to address an issue that was 
brought up in the last panel. Is that possible?
    Ms. Herseth Sandlin. It will be. I would like to recognize 
Mr. McNerney for any questions he may have of the two of you 
and then we can turn it over to you to address that issue that 
may have come up before we may have any final questions.
    Mr. McNerney.
    Mr. McNerney. Thank you, Madam Chairwoman.
    And I want to thank the panel for coming in and describing 
the accelerated program. It sounds like a good idea.
    Do you have any way or have you tracked performance of the 
recipients of the accelerated program versus the standard GI 
program?
    Mr. Wilson. In terms of outcomes, completions of the 
training?
    Mr. McNerney. Right.
    Mr. Wilson. We do not have firm data on that. We do have an 
initiative underway right now with the National Student 
Clearinghouse to develop outcome measures for all of our 
program participants. But at this point, we do not have 
anything specific, no.
    Mr. McNerney. Well, it sounds like you want to expand this 
accelerated program to include all veterans that seek GI Bill 
type assistance.
    Do you have a specific language or a bill in mind or do you 
have something prepared that you want to present?
    Mr. Wilson. Nothing beyond what is in our minds at this 
point.
    Mr. McNerney. Okay.
    Mr. Wilson. We are still working through that. But as I 
mentioned earlier, I would be more than happy to work with the 
Committee and Subcommittee on doing that.
    Mr. McNerney. I want to follow up a little bit on what the 
Chairwoman asked in terms of cost. Do you have an idea if it is 
more expensive to administer the accelerated payment program to 
a veteran than it is to administer or including the cost of 
outlays to the veteran?
    Mr. Wilson. Administrative costs, I would venture to say it 
is a wash for a couple of reasons. First of all, we are only 
making normally one payment where we may be making several 
payments. There is a little bit of difference in terms of how 
we handle the fiscal transactions, but I would say overall, the 
difference in the administrative cost is negligible.
    In terms of the amount of outlays otherwise as compared to 
normally receiving the benefit, that is a little difficult to 
predict. But if one makes the assumption that the individual 
that is using the accelerated pay provision would not be using 
the GI Bill benefit otherwise, then everything that we pay 
under accelerated pay would be additional outlays.
    I do not know if you can really make that conclusion 
because we do not know for sure whether an individual would use 
MGIB without this provision. At this point, that would be a 
leap of faith that we would have to make.
    Mr. McNerney. Okay. And then the last question for you, Mr. 
Wilson, is effectiveness in terms of reaching veterans that 
might not otherwise receive assistance. Does this reach 
veterans, do you think, in your opinion that would not 
otherwise be able to get assistance for education?
    Mr. Wilson. I believe it does. All of our outreach material 
discusses the accelerated pay provisions that we can pay under 
the law. So as long as an individual is made aware of our 
material, they should be made aware of this specific part of 
the program.
    Mr. McNerney. I have a question for Mr. Bombard. Hopefully 
it is a question you were considering. One of the earlier 
panels was talking about how unscrupulous individuals can take 
advantage of veterans that are seeking assistance. If the high-
tech restrictions are lifted, then it seems to me that it would 
open up this to even greater abuse. Is that something that you 
would agree with or disagree with?
    Mr. Bombard. I think that if you remove the restriction and 
as you expand the sample, you are going to have more 
opportunity for people to be unscrupulous and take advantage of 
the situation.
    I think that the approving agencies and the Department can 
monitor that and prevent that from happening. I have no doubt 
that people will try to take advantage of the situation, but I 
also think it is manageable.
    Mr. McNerney. Okay. No further questions. I yield back, I 
guess, is the right way to put it.
    Ms. Herseth Sandlin. Thank you, Mr. McNerney.
    Mr. Bombard, was there another issue that you would like to 
address?
    Mr. Bombard. Yes. Mr. Weidman made mention to the fact that 
the entrepreneurial training programs and the SAAs sometimes 
are loggerheads. The example that he used was one in New York. 
And as being the SAA Director in New York, I was intimately 
aware of what he was talking about.
    And to backtrack a little, the National Association of 
State Approving Agencies has met with the leadership in Kansas 
City of the Entrepreneurial Group and have come up with plans 
to approve these programs across the Nation.
    The person in New York who is a very bright leader in that 
field decided that he would take those courses that are 
approvable and put them on tape and make them distance 
learning. Well, once you make it distance learning, you change 
the dynamic.
    The law says distance learning cannot be approved unless it 
is affiliated with an IHL, an Institute of Higher Learning. 
They were not.
    We are currently in the process of working with that 
individual and as of last week, they are going to affiliate 
with a local 2-year community college from the State University 
System and the program will be approved.
    Ms. Herseth Sandlin. Do you feel that the requirement by 
law that distance learning be affiliated with an IHL is an 
important requirement and important protection or perhaps along 
the lines of some of what Mr. Boozman was exploring, distance 
learning is becoming more and more acceptable?
    Mr. Bombard. It is something on its way and I think that, 
in fact, someone mentioned to me the other day that the 
Advisory Committee was going to take a good look at that. It is 
an area which is difficult to get your hands on or to get 
around the concept. But I also think it is an area that both 
the Advisory Committee and the Congress and the Department of 
Veterans Affairs has to examine in depth.
    Ms. Herseth Sandlin. I would agree with that. I also would 
think in part to address as we try to lift this restriction in 
the broadest way feasible, and realistically here and gradually 
do it more that there might be some avenue, and probably 
through outreach, whereas more of the distance learning 
programs that may currently be unaffiliated with an Institution 
of Higher Learning had an avenue whether it is through the 
National Association of Approving Agencies or through working 
with the folks you mentioned in Kansas City, right, the 
Entrepreneurial----
    Mr. Bombard. The Kauffman Foundation.
    Ms. Herseth Sandlin. The Kauffman Foundation seeks approval 
rather than waiting for the veteran to get some informational 
material about the program and then have to kind of maneuver 
himself or herself through the process working with the VA and 
SAA of getting it approved. An avenue for these distance 
learning programs to go seek the approval. That may be worth 
exploring as well to enhance the distance learning options, 
especially for some of our veterans that are living in more 
rural areas as it relates to access and transportation issues.
    Unless there are any further questions, I have a couple of 
final requests. Mr. Wilson, in your testimony, you talked about 
the 4,045 accelerated claims that are granted thus far. In 
light of Mr. Boozman's questioning that, this is initiated in 
2002 where this list was approved, there have not been changes 
since.
    If you could provide the Subcommittee with a breakdown of 
the programs that students enrolled in using that accelerated 
education benefit for each of the years starting in 2002, maybe 
we can look at some trends and patterns. Then I would like to 
compare that, and compare the current list with the President's 
high-growth job training initiative.
    I do not know if you are familiar with that, but that seeks 
to train workers to meet the future demands on 14 specific 
sectors of the economy. It includes transportation which I 
think is broadly encompassing the commercial driver's license 
programs that we have been discussing in the bill introduced by 
Mr. Michaud. It also includes energy which is very important in 
light of programs that are being developed to train people.
    I will use one example, as it relates to wind turbines and 
the maintenance. Again, I do not know if these would qualify as 
high tech under the definition we currently use, but I think 
when the President puts forth the high-growth job training 
initiative that is designed to meet the needs in certain 
sectors, whether it be transportation, energy, or healthcare. 
Someone gave the example earlier about the EMS kind of 
transferability that does not currently exist for the CDLs.
    I think that would help us to see the breakdown, see which 
programs have the highest utilization rate, and then do a 
comparison next to these other sectors that have been 
identified for high need that might give us a basis from which 
to work. Certainly starting with the issue of flexibility, and 
the distance learning issues, there is a whole lot that we can 
talk more about to meet the objective that I think is the same 
for all of us.
    Just as soon as you could get us that information, that 
would be helpful for maybe a more informal meeting that we 
would like to set up with your office.
    I want to thank our panelists again for their testimony on 
all of the panels today. We want to wish you a good rest of the 
week and weekend. We will look forward to working with you 
more. We value your expertise, your insights, and I appreciate 
folks sticking around from earlier panels and being able to 
address issues that were raised in earlier panels and seeking 
clarification.
    Thank you for your interest on the topic and your work with 
the Subcommittee. The hearing stands adjourned.
    [Whereupon, at 3:56 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

          Prepared Statement of Hon. Stephanie Herseth Sandlin
            Chairwoman, Subcommittee on Economic Opportunity
    Good afternoon ladies and gentlemen. The Veterans' Affairs Economic 
Opportunity Subcommittee hearing on accelerated education benefits for 
veterans will come to order.
    Today, we will be hearing testimony on accelerated education 
benefits. In 2001, Congress passed legislation to assist veterans in 
paying for short-term high-cost education programs. Instead of paying 
the monthly education payments, accelerated education benefits provide 
a lump sum of 60 percent of tuition for certain programs.
    To be eligible to participate in the accelerated education benefit 
program, individuals must qualify for the Montgomery G.I. Bill-Active 
Duty, be enrolled in a short-term high-cost education program such as 
life or physical science, engineering, mathematics or computer 
specialties, and intend to seek employment in a high-technology 
industry. In addition, the tuition and fees must be 200 percent of the 
MGIB benefit that an individual would receive for that term. To date, 
approximately 4,000 veterans have or are benefiting from this important 
program.
    You might recall that on May 25, 2005, under the leadership of Mr. 
Boozman, this Subcommittee conducted a hearing on the issue of 
accelerated education benefits. That hearing raised several interesting 
issues that we can build upon today.
    While I am supportive of this program, I am very interested in 
receiving testimony to help the Subcommittee determine: if the process 
time is adequate and meeting the needs of servicemembers; if expansion 
of eligible programs is warranted; and if expansion beyond the 
Montgomery G.I. Bill-Active Duty Chapter 30 is warranted as well.
    Joining us on our first panel is Congressman Michael Michaud, a 
senior Member of our Committee and Chairman of the Subcommittee on 
Health.
    On our second panel of witnesses, we will hear from Mr. Chris 
Burruss, President of the Professional Truck Driver Institute; Mr. Rick 
Weidman, Director of Government Relations for the Vietnam Veterans of 
America; and Mr. Ron Chamrin, Assistant Director of Economics for the 
American Legion.
    Participating on our third panel is Mr. James Bombard, Chairman of 
the VA's Veterans' Advisory Committee on Education; and Mr. Keith 
Wilson, Director of Education Service for the U.S. Department of 
Veterans Affairs.
    I look forward to learning more from the testimonies we receive 
today and working with our colleagues to ensure our Nation's veterans 
are provided the best education services that they have rightfully 
earned and deserve.

                                 <F-dash>
                Prepared Statement of Hon. John Boozman
    Ranking Republican Member, Subcommittee on Economic Opportunity
    Good afternoon.
    Thank you, Madame Chairwoman, for bringing us together today to 
discuss the accelerated payment option of the Montgomery GI Bill.
    First, I have a list of the approved high-technology programs taken 
from the VA Web site and I ask unanimous consent that the list be 
entered in the record.
    The original intent of this payment option was to improve the 
affordability of relatively high-cost, short-duration programs. Absent 
specificity from Congress, the Department coordinated with the National 
Science Foundation and the Bureau of Labor Statistics to create the 
approved list and I'm sure the Department is prepared to describe the 
process. Despite what is a lengthy list, incongruities exist. For 
example, urban forestry is approved but nursing is not.
    I believe it may be time to refocus the program and better define 
the goal of the program. While improving funding for high-tech courses 
is a valid goal, I think it ignores one of the major shortcomings in 
the GI Bill, and that is the 30% of those who sign up but never use 
their benefit. College is not for everyone nor does a long-term degree 
program fit in every life situation.
    For example, those servicemembers who leave the military are often 
married with children and cannot afford 4 years away from the job 
market and need help in the form of affordable short-term education or 
training in fields that may be normally viewed as non-high tech. I 
believe, therefore, the accelerated benefit program should be a tool to 
make veterans' education benefits more flexible to help these veterans.
    We should focus primarily on improving access to non-degree 
programs. That would include things like short-term certification 
courses but not a course that is part of a degree. And, given the level 
of sophistication of most sectors of the economy, it is hard to find 
jobs other than the most basic general labor that do not either require 
or strongly encourage formal education or training. Take truck driving 
for example. My district is home to the headquarters of five of the 10 
largest trucking companies in America and I know for a fact that they 
are constantly seeking new long- and short-haul drivers. With all the 
regulations regarding hazardous materials and driving standards, truck 
driving is becoming more technically oriented every day. And I believe 
the industry needs about 100,000 more drivers for jobs that offer 
starting pay in the $40,000 range.
    I note that one of our witnesses today will testify to the 
standards to certify truck driving schools. I have seen their criteria 
and let's just say today's schools are not what our fathers would have 
been taught. Other transportation modes such as the railroads and 
certainly aviation also have significant technical training.
    But high technology should not be the only determinant. There are 
sectors of the economy crying for help these days, most of which 
require employees to master some measure of high technology. 
Transportation, hospitality, construction, healthcare, are just four of 
the dozen high-demand job fields that offer good wages and careers for 
our veterans.
    Madame Chairwoman, I look forward to working with you to make our 
education benefits programs more relevant to all of our veterans.

                                 <F-dash>
             Prepared Statement of Hon. Michael H. Michaud
          a Representative in Congress from the State of Maine
    Chairwoman Herseth Sandlin and Ranking Member Boozman, Members of 
the Subcommittee, I appreciate the initiative your Subcommittee has 
shown in considering my bipartisan legislation, H.R. 1824, and allowing 
me the opportunity to appear to discuss this important bill.
    We owe a great debt to those who put their lives in harm's way 
protecting our country. When they come home, I believe it is critical 
that we provide them with an opportunity to live the American dream 
that they have risked so much to protect. That means providing 
healthcare and benefits compensation. It also means ensuring economic 
opportunity.
    My legislation would allow accelerated payments of educational 
assistance under the Montgomery GI Bill to an eligible veteran enrolled 
in an approved program of education or training that leads to 
employment as an operator of a commercial motor vehicle. Current law 
only provides such ``accelerated'' payment for approved training 
programs that will lead to employment in a high-technology sector. I do 
not believe we should limit the range of opportunities available to our 
veterans and my bill takes a step in expanding these opportunities. My 
provision would expand accelerated payment of MGIB benefits to eligible 
veterans seeking employment in the high-demand field of commercial 
trucking. Many CDL training courses are short term and require up-front 
payment of tuition, and thus, do not conform to the current MGIB 
payment system of $1,075 per month over 36 months.
    In addition, my bill includes an important provision that would 
exclude benefits under the MGIB from being considered as income for 
purposes of determining eligibility for education grants or student 
loans under any other provision of Federal law. Current eligibility 
rules for receiving certain student Federal financial aid programs 
include MGIB payments in the calculation of resources. In other words, 
what this provision is saying is that we should not penalize our 
veterans for taking advantage of this earned benefit.
    Madame Chairwoman, easing the transition of our military personnel 
back to civilian life is a responsibility our government must fully 
embrace. I believe my bill takes a step in that direction.
    I would like to thank you and Ranking Member Boozman for your 
leadership on these issues and for allowing me to appear before your 
Committee.

                                 <F-dash>
                  Prepared Statement of Chris Burruss
             President, Professional Truck Driver Institute
             President, Truckload Carriers Association, and
        President, North American Training Management Institute
INTRODUCTION
    Good afternoon, Madame Chairwoman Herseth Sandlin, Ranking Member 
Boozman, and Members of the Subcommittee. My name is Chris Burruss, 
President of the Truckload Carriers Association (TCA), the North 
American Training Management Institute (NATMI), and I am here today as 
the President of the Professional Truck Driver Institute (PTDI). I 
appreciate the opportunity to appear before the Subcommittee on behalf 
of PTDI and to have this opportunity to voice our support for expansion 
of the GI Bill. PTDI and TCA would also like to commend Representative 
Michaud for sponsoring H.R. 1824 and Representatives Miller and Herseth 
Sandlin for cosponsoring the bill, which would enable many unemployed 
veterans to find quality work in the trucking industry upon reentering 
the civilian work- 
force.
    After having served in the United States Marine Corps, for 5 years 
on active duty, and as a veteran of Operations Desert Shield and Desert 
Storm, I understand the time a veteran spends trying to rejoin the 
civilian workforce. And, I personally applaud this Committee for trying 
to help our veterans regain their livelihood in a steadfast manner.
    The Professional Truck Driver Institute (PTDI), a part of the 
Truckload Carriers Association, was established by the trucking 
industry in 1986, and since that time PTDI has become the Nation's 
foremost advocate of standards and professionalism for entry-level 
truck drivers. This national nonprofit organization's goal is to 
advance truck driver training, proficiency, safety, and professionalism 
among drivers. PTDI serves as an independent agent for voluntary 
certification of entry-level commercial truck driver training. 
Performance standards established by PTDI are industry-driven and 
incorporate the Federal Highway Administration's ``Minimum Standards 
for Training Tractor-Trailer Drivers.'' A certification team verifies 
that the school maintains compliance with 37 certification standards in 
areas of course administration; curriculum; instructional personnel; 
training vehicles; instruction; student evaluation and testing; 
outcomes and records.
OVERVIEW OF THE COMMERCIAL VEHICLE INDUSTRY
    Commercial truck traffic is vital to our Nation's economic 
prosperity and plays a significant role in mitigating adverse economic 
effects during a national or regional emergency. Our economy depends on 
trucks to deliver 10 billion tons of virtually every commodity 
consumed--or nearly 70 percent of all freight transported annually in 
the United States. In the United States alone, this accounts for $671 
billion worth of goods transported by truck. Add $295 billion in truck 
trade with Canada and $195.6 billion in truck trade with Mexico and it 
becomes apparent that any disruption in truck traffic will lead to 
rapid economic instability. With these accomplishments, we have made 
trucking a powerhouse in the transportation arena. No other mode of 
freight transportation has so successfully--and so safely--carved out 
its position in the national economy. The industry has proudly achieved 
this milestone while reducing the number of fatalities and injuries 
from large truck crashes.
    By way of background, the industry has several transportation 
sectors within it, with different types of truck carriers classified 
for different purposes. The less-than-truckload (LTL) carrier provides 
transportation of partial-load shipments or full trailer-load shipments 
that go to multiple destinations. LTL carriers are comprised of two 
distinct segments, national LTL and regional LTL. The national LTL 
participants operate a ``hub-and-spoke'' network with an average length 
of haul of 1,200 to 1,400 miles. The regional LTL segment is 
characterized by numerous carriers, typically nonunion, that operate a 
modified hub-and-spoke network, with an average length of haul of 200 
to 600 miles for most freight. Typically, these truck drivers deliver 
or pick up merchandise within a dedicated route and are usually home 
the same day.
    Truckload carriers transport trailer-load shipments bound for a 
single destination and routes tend to be irregular with few terminals 
(used mainly for maintenance). The shipment is usually 10,000 pounds or 
more. There are several sub-categories including dry-van, flatbed, 
temperature-controlled, tanker, and regional and expedited. Operations 
vary depending on length of haul, which falls into three service 
categories: long-haul (over 1,000 miles), medium-haul (600-1,000 miles) 
and short-haul (less than 600 miles).
    These drivers haul a great deal of freight tonnage across America, 
including, but not limited to, automobiles, livestock, consumer 
products, gas, oil and other combustibles, including hazardous 
materials. Unlike the LTL drivers, this type of driver can spend a 
great amount of time on the road and may not always return home every 
day after each run. Many long-haul tractor-trailer drivers drive in 
teams for long runs--one driver sleeps in a ``sleeper berth'' for a 
portion of the route while the other drives. The truckload segment of 
the sector is really today's rolling inventory allowing goods that are 
manufactured in the morning to be delivered to their final destination 
the same evening.
TRUCKLOAD DRIVER SHORTAGE ISSUE
    Madame Chairwoman, it is the truckload segment of the truck 
transportation industry that is facing a critical shortage of qualified 
drivers. In the next 5 years, we expect both the economy and trucking 
to grow 15%. In a little more than a decade, the demand for truck 
services will increase by more than 30%, which means the trucking 
industry will transport 3.3 billion more tons of freight than it 
carries today. To put that in perspective, that's nearly 1 billion tons 
greater than the total volume of freight that railroads will carry 10 
years from now.
    In order to accommodate this higher demand, the number of Class 8 
trucks will increase by 32%, putting close to 1 million additional 
trucks on the road. This equates to needing the same amount of drivers 
in order to move the freight. The ATA report released in May 2005, 
reported that it estimates that between 2004 through 2014, the size of 
the white male population between the ages of 35 to 54, a demographic 
group that provides over half of all long-haul truck drivers currently, 
will decline by 3 million.\1\ Further, Global Insight's projection of 
trend growth in the potential supply of and demand for long-haul heavy-
duty truck drivers indicates a widening imbalance during the next 10 
years. Currently, there is already a shortage of long-haul heavy-duty 
truck drivers of approximately 20,000 needed to haul freight tonnage 
across the country.
---------------------------------------------------------------------------
    \1\ Global Insights Inc., The U.S. Truck Driver Shortage: Analysis 
and Forecast, May, 2005.
---------------------------------------------------------------------------
CHALLENGES TO RECRUITING QUALIFIED TRUCK DRIVERS
    Through my involvement as a past State Trucking Association 
President and now as President of PTDI and TCA, I can tell you that 
oftentimes, truck driving schools and carriers have to reject more 
applicants than they can actually enroll, despite the severe driver 
shortage. The reason for this is that the truck-driving industry is 
heavily regulated. The Department of Transportation, through the 
Federal Motor Carrier Safety Administration, places many restrictions 
on the type of individual that carriers can and cannot hire to drive a 
truck. The industry is presently awaiting the new recommended entry-
level driver training requirements from FMCSA. Further, insurance 
companies that underwrite carriers can place even more restrictions on 
a company regarding who they can hire as a truck driver.
    Under the FMCSA regulations, a ``qualified driver'' applying for an 
interstate truck driving job, generally speaking, is a driver who is: 
at least 21 years old; can successfully pass physical qualifications 
and examinations; can understand the English language; passes a 
controlled substances test; and, if carrying hazardous materials, 
completes a fingerprint/background check as prescribed by the 
Transportation Security Administration to be declared not to be a 
national security risk. TCA was disheartened when FMCSA turned down our 
petition for a pilot program to allow qualified and specially trained 
19 and 20 year olds to operate commercial motor vehicles in interstate 
commerce. Current Federal regulations prescribe a minimum age of 21 for 
interstate truck drivers, even though the same commercial vehicles can 
be legally operated in intrastate commerce by drivers below the age of 
21 in every state except two. We hope to revisit this petition as a way 
to gain drivers that we currently lose to other trades where there is 
not an age requirement. Stringent government regulation is, by no 
means, the only factor responsible for the driver shortage problem--
there are several reasons why it exists. Both TCA and ATA are studying 
this critical industry issue and are exploring new ways to address it.
    The critical issue is the lack of available funding for students 
who would like a career in professional truck driving and are otherwise 
qualified, but cannot afford the cost of tuition to attend a 
professional truck driving training school. The national average 
tuition to attend a professional truck driving training school for an 
average of 4 to 6 weeks is $4,000.\2\ I emphasize that these are just 
averages. Driver training is essential and must be taught by a 
reputable truck driving school in order for the driver to obtain the 
knowledge and skills to successfully pass both the written and road-
testing requirements of the commercial drivers licensing test. A 
company will not hire a driver, nor will any civilian individuals 
legally be able to drive a commercial motor vehicle, without a valid, 
state-issued CDL. (Please note each state has its own CDL test 
requirements, it is not a Federal standardized test.)
---------------------------------------------------------------------------
    \2\ National Association of Publicly-Funded Truck Driver Schools 
Survey, 2004.
---------------------------------------------------------------------------
    For the prospective truck driver student, who has the means to 
finance his/her education at a proprietary (privately-owned) truck 
driving school, there is no problem. However, for the student or 
veteran who would like to attend truck driving school but does not have 
the means, financing his/her education can be a daunting, often 
disappointing task. These students, in many cases, must apply for high 
interest, personal loans--some of whom are turned away due to poor 
credit history. Others weed through the web of Federal bureaucracy to 
find an alternative funding source, consisting of either full or 
partial Federal grant funds.
    Publicly-funded truck driver training programs are oftentimes 
operated out of the community college or vocational school system. They 
do not operate on a ``for-profit'' basis and in most cases, can offer a 
somewhat lower rate of tuition for truck driver training programs.
CURRENT GI BILL SYSTEM OF EDUCATIONAL ASSISTANCE NOT AN EFFICIENT 
        FUNDING MECHANISM FOR TRUCK DRIVER TRAINING SCHOOL TUITION
    Accelerated benefits, which have in the past been available for 
high-tech occupations since 2002, make short-term, high-cost training 
programs more attractive to veterans by paying benefits in lump sum per 
term, and by covering a greater share (60%) of the cost of such 
programs. H.R. 1824 would expand this program to eligible veterans 
seeking employment in the high demand field of commercial trucking.
    Under the current system a veteran who is eligible for full time, 
active duty MGIB benefits may receive a maximum monthly educational 
benefit of $1,004. Most truck driving schools, through their financial 
aid offices, submit a veteran student truck driver's DD-214 to the VA 
for processing. From that point, it can take upward of 45 days before 
the veteran student receives his or her first $1,004 MGIB benefit check 
to apply toward the school's tuition cost. Schools that work with 
veterans report that there is a tremendous lag time between payment and 
services rendered. By the time a veteran receives his or her first 
$1,004 check the student may have completed one-half of his or her 
$4,000 worth of training, depending upon the school selected.
    Public, private or carrier-based truck driving training schools do 
not typically operate on a traditional semester-based system. More or 
less, they operate on a rolling schedule, with new enrollments/classes 
beginning every few weeks. For a school that has been qualified by the 
VA to receive MGIB educational benefits, the current VA funding 
mechanism through which the school receives payment from the MGIB 
recipient is far from efficient.
    Upon the veteran student's completion of the 2- to 3-month truck 
driver training program, the school may have collected approximately 2 
to 3 thousand dollars in MGIB benefit moneys of the $4,000 tuition fee 
still owed. Because the truck driver training school has no control 
over the distribution of MGIB funds, when or whether the school will 
receive full tuition payment can create concern for all involved 
parties.
A CAREER IN LONG HAUL TRUCK DRIVING
    For those individuals who are willing to work, are careful, safe 
and responsible, the trucking industry offers them a wonderful 
opportunity. There are very few industries where an individual with a 
high school degree enter a profession with only 4-6 weeks of training, 
which is unlikely to experience ``downsizing'' and, offers them an 
entry-level possible salary of between $42-45,000 a year. However, once 
trained these positions can enable a veteran to make an upward salary 
of $60,000-$100,000 or more if they choose to become an Owner Operator. 
Without a doubt, today's new professional driver must be as savvy about 
technology as most white collar workers, and lack of this knowledge may 
slow down career progress. What the trucking industry also offers is 
job security; these training dollars will stay in the United States.
    There are, as is the case with every job, downsides to long-haul 
truckload truck driving which are usually explained at the outset by 
the school instructor to every truck driver trainee. For those who 
chose to leave the truck driving profession, the most often-cited 
reason was the lifestyle. Long haul truck driving requires that the 
driver spend varying degrees of time away from home and a lot of time 
on the road. The industry is addressing this issue and many companies 
are trying to address the lifestyle issue by seeking ways to allow the 
driver more ``home time.''
VETERANS ARE OUTSTANDING CANDIDATES FOR EMPLOYMENT IN THE TRUCKING 
        INDUSTRY
    According to most truck driving schools, the reason they like to 
recruit veterans is simple. According to most truck driving school 
recruiters, former military personnel make the best students and have a 
higher training graduation rate than their civilian counterparts. From 
the trucking companies' perspective, veterans have the reputation of 
being outstanding employees. Their military training and background 
lends itself to (among other traits) leadership, respect for 
procedures, integrity and teamwork--ideal characteristics sought by all 
employers but vital to the success of a professional commercial truck 
driver. Additionally, most veterans, particularly those who have been 
recently separated from the armed services, are able to pass the drug 
and alcohol screening tests; the physical examination process; and, may 
have a good civilian driving record. For veterans whose military 
occupational specialty, or MOS, involved heavy truck driving, 
professional commercial truck driving may be a natural career path. 
What is also an advantage for the veterans, is although they are used 
to being away from their families, when they finally get home, they do 
not want to have to move their families. As this is a job that moves 
across the United States, you can leave your family situated were they 
are, and take a job in another state.
    Although a military license does not automatically convert into a 
CDL in most U.S. states, the skills gained driving a truck in the 
military are certainly of great value when applying them to a truck 
driver training school program. TCA has communicated with the 
Department of Labor and the Department of Veterans Affairs in an effort 
to make the licensing transition less complicated.
    Many PTDI schools have created special evaluations for the veterans 
reentering the workforce with their MCDL, to see exactly how much 
training they will require. Many times they just need refresher 
courses, or specific training in the regulations, and then they are 
accommodated accordingly.
CONCLUSION
    In closing, Madame Chairwoman, I would like to ask that this 
Subcommittee join PTDI and TCA in support of Congressman Michaud's bill 
H.R. 1824. Our veterans looking for a second career deserve our 
support.
    As an industry projected to add substantial numbers of new jobs to 
the economy, the transportation industry and PTDI is interested in 
working with you to address the skill shortage and workforce 
challenges. As an industry that has been recognized in The President's 
High Growth Job Training Initiative at the Department of Labor, we look 
forward to working with the Subcommittee to further this initiative.
    This concludes my remarks, Madame Chairwoman. Thank you.

                                 <F-dash>
                Prepared Statement of Richard F. Weidman
          Executive Director for Policy and Government Affairs
                      Vietnam Veterans of America
    Chairwoman Sandlin, Ranking Member Boozman, and Members of the 
Subcommittee on Economic Opportunity, Vietnam Veterans of America (VVA) 
thanks you for the opportunity to testify here today. And on behalf of 
our officers, our Board of Directors, our members and their families, 
we thank you, too, for the important work you are doing, and the 
initiatives you are taking, on behalf of our Nation's veterans. Not 
everyone will need medical care or other services, but everyone 
(including disabled veterans) will need a job and/or assistance and 
training that will help lead to gainful employment, and their fullest 
possible reintegration into the life of our country.
    We would like to focus our comments this morning on just a narrow 
issue of non-credit training, particularly entrepreneurial training for 
those who wish to go into small business or self employment. It has 
been said so often that by now it is almost a truism to say that self 
employment is many times not only the best avenue for disabled veterans 
(particularly profoundly disabled veterans) to secure gainful 
employment worthy of their talents where they live, but it may be the 
only way. That may be particularly true in rural areas like most of 
South Dakota and northwest Arkansas, and many other parts of the 
country. It is worth bearing in mind that apparently more than half of 
those deployed overseas come from towns of 25,000 or less, where job 
opportunities are much more truncated than is the case in more highly 
urbanized areas of the United States. This makes the work of this 
Subcommittee all the more important.
    VVA strongly favored the extension of the Montgomery GI Bill 
benefits to pay for special vocational programs in the past few years, 
including the initiative for non-credit courses for those who need 
additional training in order to succeed at the business they are 
already working, or to be prepared to more successfully launch a 
business on which they are embarking.
    It has become clear that the rules for approving some of these 
courses are so stringent as to discourage many of the Small Business 
Development Centers (SBDC) from even trying to have their courses 
approved. It is a matter of striking a reasonable balance between 
quality and accessibility, between the hours spent in the classroom and 
the way adults actually do most learning today in this digital day of 
almost universal access to the Internet and computers. VVA would 
suggest that this is particularly for those who are in business or 
about to launch their own business. Their time for studying and 
processing the material is often whenever they can fit it in, which is 
often an hour here and an hour there during the work day (which is 
often 12 or more hours), and that often will not conform to the needs 
of a more traditional classroom model.
    I must caution that VVA has always, and continues to have, the 
highest respect for the way in which most of the State Approving Agency 
people do their job of protecting veterans from unscrupulous operators 
of ``fly-by-night'' businesses that masquerade as legitimate training 
academies of one sort or another.
    However, the Nation's system of more than one thousand Small 
Business Development Centers (SBDC) are NOT unscrupulous operators, but 
well respected and sought after resources, that are often the genesis 
of as well as one of the engines of prosperity for economic development 
within an area. As you know, there is at least one SBDC in each of the 
435 congressional districts in the country, because everybody wanted 
one!
    Most of their offerings are paid for straight out of the pocket of 
the entrepreneurs and would-be entrepreneurs and small business owners. 
They pay for these courses and training regimen because they believe 
that this knowledge and training will help them have a better chance of 
succeeding at their small business. Overall experience in the small 
business community indicates that they are correct that their chances 
of success are greatly enhanced by purchasing such training.
    It is clear that the SAA continue to uphold what they see as the 
clear legal standards set in law and regulation for traditional 
training, and do a fine job of it. The problem is that many of the 
veterans who are in small business want and need training that is not 
offered in these traditional formats from the SBDC. Congress enacted 
changes in the GI Bill in order to help these veteran business owners 
and entrepreneurs to be able to receive assistance to pay for these 
courses. However, nothing was done to change the format of the 
standards and benchmarks that the SAA must adhere to in upholding 
quality standards to reflect that these are often not traditional 
classroom training. It is clear that the Congress must now work with 
the Association of Small Business Development Centers and others to 
develop language in the law that both protects the veteran and yet 
makes it possible for approval of the many fine offerings of the SBDC 
needed by veteran-owned businesses. Given that the very nature of the 
delivery system for adult learning in America continues to evolve, it 
is hardly likely that this problem is limited to just the 
entrepreneurial courses offered by the SBDC. Therefore an initiative 
that offers a new legal paradigm is needed in Title 38 to accommodate 
this vital vocational training.
    Further, VVA supports an initiative which would extend and improve 
certain authorities of the Secretary of Veterans Affairs related to 
providing State Approving Agencies (SAAs) with funding necessary to 
fulfill their statutory responsibilities and, more importantly, provide 
veterans with services that are vital to the success of the various 
educational assistance programs. Simply said--State Approving Agencies 
are the face of the GI Bill at the State level, and need more funds to 
properly do their job.
    In this same vein, VVA supports extending the current rates of 
payment for veterans who are enrolled in an apprenticeship or other on-
the-job training program. We believe that this provision will allow 
more veterans who cannot or choose not to enroll in an institutional 
program to pursue training for an occupation or profession leading more 
directly to gainful employment, which not only helps retuning veterans 
and demobilized National Guard and Reserve Members to better readjust 
to civilian life, but it also helps them to help America be more 
competitive in the world economy.
    This concludes our testimony. Again, VVA is appreciative of having 
been afforded the opportunity to testify and offer our views here 
today. I would be pleased to respond to any of your questions.

                                 <F-dash>
                Prepared Statement of Ronald F. Chamrin
        Assistant Director, Economic Commission, American Legion
    The American Legion appreciates this opportunity to share its views 
on accelerated education payments and the impact regarding veterans' 
education.
    The American Legion supports granting veterans the option to 
request an accelerated payment of all monthly educational benefits upon 
meeting the criteria for eligibility for Montgomery GI Bill (MGIB) 
financial payments. The selection of courses veterans undergo remain 
exclusively the decision of the individual veteran, and all earned 
veterans' education benefits should be made available to veterans in 
support of their endeavors. Accelerated education payments allow 
veterans to achieve education goals in the manner that they decide. 
Binding the timeframe of an education payout may restrict educational 
options for some veterans.
    In addition to the traditional institutions for higher learning, 
MGIB benefits can be used for training at Non-College-Degree 
Institutions, On-the-Job or Apprenticeship Training, Independent, and 
Distance or Internet training. The MGIB also allows the Department of 
Veterans Affairs (VA) to reimburse veterans for the fees charged for 
national tests for admission to institutions of higher learning and 
national tests providing an opportunity for course credit at 
institutions of higher learning. Examples of tests covered are SAT, 
GRE, CLEP, GMAT, LSAT, etc. The MGIB for veterans, and not those 
eligible under Survivors and Dependents Educational Assistance (DEA), 
is available for Flight Training and Correspondence Training.
    The significance of expanding the scope of accelerated education 
payments is that the preceding categories are eligible for MGIB 
payments, yet excluded from accelerated education payments. The 
American Legion recommends that all MGIB-approved courses, including 
the On-the-job training (OJT) and Apprenticeship courses, become 
eligible for accelerated education payments.
    The American Legion supports the expansion of Public Law 107-103 to 
include:

    1.  Survivors and Dependents Educational Assistance (DEA, or 
Chapter 35)
    2.  Post-Vietnam Era Veterans' Educational Assistance Program 
(VEAP, or Chapter 32)
    3.  Reserve Educational Assistance Program (REAP, or Chapter 1607)
                     ACCELERATED EDUCATION PAYMENTS
    The American Legion is deeply concerned with the timely manner that 
veterans, especially returning wartime veterans, receive their 
education benefits. Annually, for the past 6 years, approximately 
300,000 servicemembers, 90,000 of them belonging to the National Guard 
and Reserve, enter the civilian sector and have the ability to use 
their education benefits.
    Any delay in receipt of education benefits can adversely affect a 
veteran's life. There are time restrictions on most veteran education 
benefits, specifically, the National Guard and Reserve must remain in 
the Selected Reserve to use their earned benefits. Every effort should 
be made to ensure that the MGIB and related veterans' education 
benefits are delivered without delay.
    Public Law 107-103 allows accelerated payments to be made available 
to MGIB-AD (Chapter 30) recipients only at a lump sum payment of 60 
percent of tuition and fees for certain high-cost, high-tech programs 
if the cost of the degree exceeds 200 percent monthly rate of basic 
educational assistance allowance otherwise payable. To qualify, a 
veteran must be enrolled in a high-tech program and certify that they 
intend to seek employment in a high tech industry as defined by VA. The 
American Legion applauds the initiative of veterans entering the fields 
of life science, engineering, computer specialties, electronics and 
aerospace; however, the type of program available for accelerated 
payments should not be limited.
    Ironically, courses in education are excluded from this program. 
Truck driving, program evaluation, policy, law, communication, early 
childhood education, human resources, recreation, and liberal arts are 
other programs that are also excluded.
    The minimum threshold to qualify for accelerated education payments 
based upon the FY 2007 pay rates for Chapter 30 is at least $2,150 a 
month for full time, $1,612 for three-quarter time, $1,075 for half 
time to one-quarter time, and $537 for less than one-quarter time. The 
credit hours for these categories are 12, 9-11, 6-8 and less than 6 
respectfully. For graduate-level training, the training time is 
determined by the college.
    The American Legion is concerned with the ranges of program costs 
throughout the country. Consideration should be made to lower the 200 
percent threshold for receiving accelerated payments.
    The American Legion supports legislation that would conform to our 
recommendations. Increasing the educational benefit available through 
the MGIB will provide a better incentive to veterans to complete a 
program with immediate employment results, without the concern of going 
into short-term debt.
    Amending Title 38, United States Code, to expand the scope of 
programs of education for which accelerated education payments of all 
educational assistance under the MGIB is needed. Accelerated education 
payments would greatly assist qualified veterans enrolled in an 
approved program of education that leads to employment, such as truck 
driving. This expansion would give veterans more educational options 
and a better diversity of vocations.
    Not every veteran is destined for college; therefore, the MGIB 
needs to be more accessible for those veterans with vocational 
aspirations other than college. The overall costs of these ``short-
term'' vocational training and licensing programs far exceed the 
monthly stipend provided under the traditional ``college-student-for-
36-months'' approach in the current MGIB.
    Veterans should be afforded the opportunity to attend compressed 
high-front-end-cost programs that will lead to the vocation of their 
choice. Veterans who attend these programs should have the opportunity 
to use a portion of their earned benefits at an accelerated rate. 
Expanded options will also increase utilization of the MGIB.
    In addition, a higher percentage of today's servicemembers are 
married (with children in the majority of cases) when they are 
discharged. Meeting the financial obligations to sustain and maintain a 
household is paramount, and often serves as a major obstacle to their 
timely use of the MGIB. Every effort must be made to empower these, and 
every veteran, with options to make the best vocational choice to help 
them achieve the American dream.
    In addition, the American Legion strongly supports the expansion of 
the program to include other short-term programs of value that could 
lead to the immediate employment of veterans.
    CURRENT PROBLEMS ASSOCIATED WITH LIMITED APPROVED PROGRAMS FOR 
                       ACCELERATED MGIB PAYMENTS
Frequent Active Duty Activations Among Reserve Forces
    The American Legion asserts that due to the frequent call-ups of 
the National Guard and Reserve Forces, veterans are forced to divert 
from the traditional semester schedule in an attempt to finish their 
programs before the next call-up.
    National Guard and Reserve units are continuously training in 
preparation for war. Leadership development, combat lifesaver, 
communications, language, airborne, and air assault are examples of 
courses that are conducted year round. One in particular, leadership 
development courses, are required for any promotion.
    Student servicemembers must choose to either enter these courses to 
advance their military career and better prepare them and their units 
for war, or remain at their universities thereby slowing their military 
advancement progression. Accelerated education payments will allow for 
these individuals to enter short-term/high-cost programs that allow 
them to complete the course within the window between military 
requirements.
Expansion Beyond Chapter 30
    It is important to note that accelerated education payments are 
only available to Chapter 30 benefits; Reserve Education Assistance 
Program (REAP) beneficiaries and other programs are barred from 
receiving accelerated payments.
    An example is a veteran who has deployed 15 months to Iraq earning 
her 36 months of benefits at a rate of $645/month. If she chose to 
enter a high-cost/short-term program such as a teaching certification 
program she would only be able to use her education benefits at the 
monthly rate. Furthermore, her benefit would only be available to her 
as long as she remains an active member of the Selective Reserve.
Programs Other Than High-Tech
    Sgt. Bruce Dunlap is currently recovering from devastating injuries 
at the Walter Reed Army Medical Center from his service in Iraq. He 
wishes to enter the vocational rehabilitation program and work toward 
becoming a teacher. Bruce eagerly wants to be able to become self-
sufficient and restart his civilian life.
    This amazingly strong-willed person has further expressed his 
desire to begin teaching and after a few years of employment enter a 
masters program with a more specific focus on advanced education. Bruce 
plans on using his MGIB to pay for his masters program while 
simultaneously working as a teacher. He would take high-cost/short-term 
night courses; however, these programs are not currently eligible for 
accelerated payments.
    Sgt. Dunlap's educational plan is not specifically unique; 
civilians have similar style education plans that also encompass other 
fields. What is unique, and can never be overlooked, is that this story 
is that of a veteran. Specifically, he is a severely injured veteran 
that volunteered to enlist in the military and serve his country. It is 
our obligation to ensure that the earned educational benefits of 
America's veterans are actually of value to those seeking a non-
traditional route to their education.
            INCREASE IN USE OF VETERANS' EDUCATION BENEFITS
    Starting in 2001, the total use of education benefits by veterans 
continues to increase.
    In FY 2006, approximately 470,000 individuals received education 
benefits. This equates to approximately 3 million courses taken by 
veterans.
    With the increasing number of eligible veterans and the increasing 
quantity of discharged veterans, the need for assistance and 
implementation of all elements of veterans' benefits will continue to 
rise.
    Accelerated education payments of MGIB benefits will assist 
veterans to use their education benefits in a manner that best serves 
them.
                               CONCLUSION
    Historically, the American Legion has encouraged the development of 
essential benefits to help attract and retain servicemembers into the 
Armed Services, as well as to assist them in making the best possible 
transition back to the civilian community. The Servicemen's 
Readjustment Act of 1944, the ``GI Bill of Rights'' is an historic 
piece of legislation, authored by Harry W. Colmery, Past National 
Commander of the American Legion, that enabled millions of veterans to 
purchase their first homes, attend college, obtain vocational training, 
and start private businesses.
    Accelerated education payments are an instrument that will allow 
earned education benefits to be used for all MGIB-approved courses. In 
such, the number of beneficiaries and total value of the MGIB program 
will increase. Furthermore, in a time of war, every effort to promote 
and facilitate the use of veterans' education benefits must be a 
national priority.
    The American Legion believes that honorable military service, 
combined with improved education and vocational training opportunities, 
enhances an individual, increases diversity, and betters society as a 
whole. The education pillar is continuous and ever evolving. The 
diminishment of support for educational opportunities for veterans will 
decrease the ability to recruit new servicemembers, and unfairly 
subject veterans to barriers of benefits that they have earned.
    The American Legion appreciates the opportunity to present this 
statement for the record.

                                 <F-dash>
                  Prepared Statement of James Bombard
           Chairman, Veterans Advisory Committee on Education
                  U.S. Department of Veterans Affairs
Introduction
    Chairwoman Herseth Sandlin, Ranking Member Boozman and Members of 
the Subcommittee on Economic Opportunity, I am pleased to appear before 
you today on behalf of the Department of Veterans Affairs (DVA) 
Secretary's Veterans Advisory Committee on Education (VACOE) to provide 
the Committee's view on how the GI Bill can be modified to expand the 
accelerated benefit program beyond the high-technology industry. I have 
had the pleasure of working with the Members and staff of the Committee 
for many years as the Committee worked to improve various GI Bills.
Remarks
    In general, much has been done in recent years to provide 
servicemembers, veterans, and other eligible persons with greater 
opportunities to use the education and training benefits to which they 
are entitled. Yet, the nature of today's global economy demands that we 
continue to strive to help our workforce--especially our veterans--to 
gain new knowledge and learn new skills in order to maximize their 
contributions to the Nation.
    It is the VACOE's view that even with the recent increases in the 
monthly benefit amount, some veterans find it cost prohibitive to 
enroll in an institutional program that will provide the knowledge and 
skills necessary for them to reach their occupational or professional 
objective.
    Removing the current restriction that requires enrollment in a 
program that leads to employment in high-technology industries would 
allow greater opportunities for more veterans to use their GI Bill 
benefits. Additionally, we recommend revising the law to limit the 
length of a program that qualifies for accelerated payment to 2 years 
or less. The discussions that led up to the enactment of the original 
legislation centered on short-term high-technology courses. The 
language that was enacted does not impose any limitations on length, 
therefore all high-technology programs, including many 4-year degree 
programs, qualify. We also recommend using the ``base rate'' because 
veterans who take advantage of the $600 buy-in, 34/30 conversions, and 
kicker recipients, or any combination thereof, can be penalized by 
having their additional monthly payment disqualify them for accelerated 
payment under the current 200% calculation method.
Processing
    Processing time for accelerated payment allowances is on average 
approximately 8 weeks for original and 2 weeks for supplemental claims. 
With regard to the adequacy of that timeframe this may pose a problem 
to veterans who are enrolled in short-term, high-cost programs.
    Claims processing is a complicated, time consuming endeavor which 
could be made more efficient and effective with the adoption of a Total 
Force GI Bill.
    It is the VACOE's view that the accelerated payment provision 
should be restricted to non-degree 2 years or less programs. A good 
example where the accelerated payment provision needs to be expanded is 
commercial driver license training programs. Nationally truck driver 
programs are relatively expensive because of the complexities of 
today's equipment and the demands of new licensing requirements for 
specialized loads. An opportunity to use the accelerated payment 
provision of the law would allow more veterans to pursue their chosen 
occupation.
    A word of caution, by expanding eligibility for accelerated payment 
the opportunity for abuse increases. Therefore, the DVA and, 
particularly State Approving Agencies (SAA), will have to be ever more 
vigilant.
Summary
    The VACOE supports expanding the accelerated payment provision of 
section 3014A, title 38 USC, to include short-term 2 years or less, 
high-cost, non-degree programs. As aforementioned, the Committee also 
understands there will be a need for increased vigilance on the part of 
the DVA and SAAs to limit waste, fraud and abuse.
Closing
    In closing, Mr. Chairman, I would like to thank you for the 
opportunity to present the views of the Advisory Committee on Veterans 
Education regarding accelerated payment provision of title 38 USC. 
Thank you also for your efforts to make improvements to the education 
and training assistance programs that have been made available to those 
who defend the freedoms that we all so thoroughly enjoy. I would be 
happy to respond to any questions you may have.

                                 <F-dash>
                 Prepared Statement of Keith M. Wilson
     Director, Education Service, Veterans Benefits Administration
                  U.S. Department of Veterans Affairs
    Good afternoon Chairwoman Herseth Sandlin, Ranking Member Boozman, 
and Members of the Subcommittee. I appreciate the opportunity to appear 
before you today to discuss the Department of Veterans Affairs (VA) 
accelerated payment program. My testimony will provide an overview of 
the accelerated payment benefit and the courses of study that qualify 
for accelerated payment.
    Under Section 3014A, Title 38, United States Code, a Montgomery GI 
Bill participant pursuing high-cost courses leading to employment in a 
high-technology occupation in a high-technology industry has the option 
of receiving an accelerated benefit payment. This optional lump-sum 
accelerated benefit payment covers up to 60 percent of tuition and 
fees. Currently, accelerated payments are only available under the 
Montgomery GI Bill-Active Duty (MGIB-AD) program.
    VA makes accelerated payments for one term, quarter, or semester at 
a time. However, if the program is not offered on a term, quarter, or 
semester basis, an accelerated payment is made for the entire program.
    To qualify the individual must be enrolled in a high-technology 
program and must certify that he or she intends to seek employment in a 
high-technology industry as defined by VA. In consultation with the 
Department of Education, VA has defined the following industries as 
high technology: biotechnology, life science technologies, opto-
electronics, computers and telecommunications, electronics, computer-
integrated manufacturing, material design, aerospace, weapons, and 
nuclear technology.
    In addition, the program of study undertaken must have a 
sufficiently high cost. The tuition and fees for the program of 
education, when divided by the number of months in the enrollment 
period, must exceed 200 percent of the monthly rate of basic 
educational assistance allowance otherwise payable. School-related 
expenses, including books, supplies, and general living expenses, may 
not be counted when determining entitlement to accelerated payments.
    If these criteria are met, the individual will receive an 
accelerated payment in lieu of the monthly MGIB-AD benefits that he or 
she would otherwise receive for the covered enrollment period. Payment 
is generally sent directly to the eligible individual.
    Accelerated payments are granted for a variety of courses of study 
and for both degree and non-degree programs. The following courses of 
study may qualify for accelerated payments:

    <bullet>  Life science or physical science (but not social science)
    <bullet>  Engineering (all fields)
    <bullet>  Mathematics
    <bullet>  Computer specialties or management

    Short non-degree courses in these areas may also qualify for 
accelerated payments if they are approved for VA benefits by a State 
Approving Agency (SAA).
    An individual must include his or her request for an accelerated 
payment with the enrollment information sent from the school to VA for 
processing. The request for an accelerated payment should include the 
individual's certification that he or she plans to seek employment in a 
high-technology industry.
    If an individual is approved to receive an accelerated payment, his 
or her entitlement will be charged based on the amount of payment 
received. VA will divide the amount of the accelerated payment by the 
amount of the individual's full-time monthly rate, and his or her 
entitlement will be reduced by the resulting number of months and days. 
For example, if a trainee receives an accelerated payment of $3,600 and 
his or her full-time rate is $900, VA will charge 4 months of 
entitlement ($3,600/$900 = 4 months).
    As noted previously, the accelerated payment program is only 
available to individuals eligible for MGIB-AD benefits. Since the 
accelerated payment program's inception in FY 2003, we have received 
4,808 accelerated payment claims through March 31, 2007. We have 
granted 4,045 claims and paid almost $26 million in accelerated 
payments. The average payment amount is approximately $6,400.
    We believe the utilization of the accelerated payment program 
indicates that this provision of MGIB-AD has filled a niche in 
assisting eligible individuals with their readjustment to civilian life 
and preparing them for critical roles in a 21st century economy.
    Madame Chairwoman, this concludes my statement. I would be pleased 
to answer any questions you or any of the other Members of the 
Committee may have.
                       SUBMISSIONS FOR THE RECORD
               Prepared Statement of Walter G. Blackwell
                 President and Chief Executive Officer
           National Veterans Business Development Corporation
                        The Veterans Corporation
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and 
distinguished Members of the Subcommittee, I thank you for giving me 
the opportunity to submit for the record TVC's position on Accelerated 
Education Benefits for Veterans. My name is Walter G. Blackwell; I am 
the President and CEO of The Veterans Corporation and a Navy veteran.
    The National Veterans Business Development Corporation, doing 
business as The Veterans Corporation, is a Federally-chartered 
501(c)(3) organization charged with creating and enhancing 
entrepreneurial business opportunities for Veterans, including Service-
Disabled Veterans.
    Section 305 of Public Law 108-183 allows individuals to use VA 
educational assistance for non-degree, non-credit entrepreneurship 
courses offered by designated organizations called ``qualified 
providers.'' These courses may be pursued under the Montgomery GI Bill 
(chapter 30), the Veterans' Educational Assistance Program (chapter 
32), the Montgomery GI Bill-Selected Reserve (chapter 1606) and section 
903 of Public Law 96-342, but not under the Dependents' Educational 
Assistance Program (chapter 35). Public Law 107-103 outlines the 
accelerated payment provisions for recipients of VA educational 
benefits under Chapter 30 (MGIB). While the concept of accelerated 
payments has been recognized by enactment of recent law, its 
implementation has fallen short. The Veterans Corporation (TVC) concern 
has been that Veterans cannot pay for short-term, high cost 
entrepreneurial programs, which are often not delivered by academic 
institutions and do not fit familiar models of traditional course 
delivery.
    For Veterans wishing to seek entrepreneurial training through the 
courses/training currently available through TVC and our partners; 
accelerated payment only covers part of the training cost. TVC is 
cautious to develop and offer additional entrepreneurial courses to 
Veterans because the MGIB does not cover the full cost.
    For example, the MGIB only covers 70% of the cost toward the Owner-
Operator Business Management Seminar available to Veterans who wish to 
become an Independent Owner-Operator of a heavy-duty truck. 
Additionally the MGIB only covers 60% of the cost toward the Veterans 
Commercial Drivers License Training. This leaves the Veteran left to 
typically pay more than $1,000 for the training needed to start his/her 
own truck driving business.
    TVC recommends that steps are taken to correct the situation and 
allow Veterans the opportunity to use their education benefits to cover 
the entire cost of ``short term/high cost programs'' and distance 
learning, and not limit payment only to the high tech programs 
currently defined by the Department of Veterans Affairs.
    Thank you again Madame Chairwoman. This concludes my statement.

                                 <F-dash>
               Statement of Paralyzed Veterans of America
    Chairwoman Herseth Sandlin, Ranking Member Boozman, and Members of 
the Subcommittee, on behalf of Paralyzed Veterans of America (PVA), we 
would like to thank you for the opportunity to submit a statement for 
the record today concerning accelerated payments for education benefits 
and proposed changes to the Montgomery GI Bill (MGIB). It is only 
appropriate that Congress consider updating one of the most important 
veterans' benefits ever enacted.
    The Global War on Terror has produced a large number of men and 
women that have served honorably and have since been discharged from 
the military and become veterans. In the case of many National Guard 
and Reservists, they may have a career or job to return to. The future 
for active duty servicemembers leaving the military is not so certain. 
Many of these men and women plan to use earned MGIB benefits to begin 
or continue their college education, or pursue other career paths. The 
expansion of the eligible programs will increase the opportunities for 
these veterans.
    The MGIB has been modified by Congress through the years to 
increase its value for the veteran and widen the scope of programs it 
can be used for. As the job market changes, new training programs to 
accommodate the job market must be available. With improvements to the 
MGIB, Congress has made it easier for veterans to pursue a traditional 
college degree. However, we also realize that this traditional path for 
this benefit may not be the case for many veterans.
    The accelerated payment program was enacted in 2003 to address 
opportunities for veterans in the high tech industry. Intensive courses 
condensed into a few months offer an excellent opportunity for veterans 
to be certified in advanced levels of information technology knowledge. 
In less than the standard 36 months of normal classroom study, a 
student is ready to enter the work place. Using this accelerated pay 
initiative for other career programs would give the veteran more 
options. Using the funds that the veteran partially paid into to obtain 
training for a career path the veteran has chosen seems to be a 
reasonable allowance.
    Similarly, veterans with significant disabilities and a sufficient 
work history will qualify for Social Security Disability Insurance 
[SSDI]. Such veterans, like anyone on SSDI, will receive a Ticket to 
Work voucher under Social Security's Ticket to Work program. Using 
their Ticket, veterans can go to a state vocational rehabilitation 
agency or a private employment training/counseling provider of their 
choice [called an Employment Network or EN] and use the services of 
that agency or provider to obtain a job that will enable them to leave 
the SSDI benefit rolls. A requirement of the Ticket to Work program, 
however, is that a Ticket-holder must make ``timely progress'' toward 
his or her vocational goal in order for the EN to receive payment from 
the Social Security Administration. During the first 24 months after 
placing a Ticket with a provider, the beneficiary is not expected to 
work but must be actively participating in the employment plan 
developed with his/her EN.
    Perhaps a veteran on SSDI could use accelerated MGIB benefits in 
tandem with an employment network job training program that would take 
place during the first 24 months of Ticket program participation. Such 
an arrangement would also likely make the veteran an appealing client 
for any Employment Network since the GI Bill would be paying the costs 
of that training rather than the EN itself.
    PVA also supports the expansion of MGIB Chapter 30 benefits beyond 
the scope of the active duty to include National Guard and Reserve 
servicemembers in an accelerated payment educational plan. Never before 
has our Nation asked so much from this group of servicemembers. It is 
only right that they should have the same opportunities as many of 
their full-time active duty counterparts. Some may choose this 
accelerated payment option for the MGIB for a career change after their 
active duty commitment ends. They should not be deprived of this 
option.
    The Independent Budget for FY 2008 also includes some discussion 
about the concept for a Total Force Montgomery GI Bill to match the 
operational integration of active duty, National Guard, and Reserve 
servicemembers. Although the Reserve MGIB worked well prior to 
September 11, 2001, that system does not match up appropriately with 
the now large and sustained activations of Guard and Reserve units 
following that time. Congress did attempt to correct this benefit gap 
by authorizing a Reserve Title 10 MGIB program for Reservists who were 
mobilized for more than 90 days for a contingency operation; however, 
funding challenges and difficulty correlating the program to the 
original benefit and active duty benefits has delayed its 
implementation.
    As stated directly in The Independent Budget, ``The nation's total 
armed forces need a MGIB that supports recruitment and retention, 
readjustment to civilian life, proportionality of benefits for service 
rendered, and ease of administration.'' With this thought in mind, The 
Independent Budget for FY 2008 recommends the creation of the Total 
Force MGIB.
    As explained in The Independent Budget, the Total Force MGIB has 
two broad concepts. The first would allow all active duty and reserve 
MGIB benefits to be organized in Title 38. The second would allow MGIB 
benefit levels to be simplified according to the military service 
performed.
    These changes could be best achieved by integrating National Guard 
and Reserve MGIB benefits with active duty. In accordance with the 
recommendations of The Independent Budget, the benefit rates could then 
be structured as follows:
        Tier one--similar to the current Montgomery GI Bill-Active Duty 
        3-year rate--would be provided to all who enlist in the active 
        armed forces. Service entrants would receive 36 months of 
        benefits at the active duty rate.
        Tier two would be for nonprior service direct entry in the 
        Selected Reserve (SELRES) for 6 years. Benefits would be 
        proportional to the active duty rate. Historically, Selected 
        Reserve benefits have been 47 to 48 percent of active duty 
        benefits.
        Tier three would be for members of the Ready Reserve who are 
        activated for at least 90 days. They would receive 1 month of 
        benefits for each month of activation, up to a total of 36 
        months, at the active duty rate.
    Finally, the 10-year eligibility period for use of education 
benefits would apply for active duty servicemembers as well as service 
Members who earn benefits under Tier three mentioned above. A Selected 
Reserves servicemember would be eligible to use his or her benefits 
while still serving in SELRES and for up to 10 years following 
separation for disability or qualifying retirement.
    As Congress increases the training opportunities for the veterans 
they must insure that new programs meet the approval of State Approving 
Agencies (SAAs). SAAs operate through a state's department of education 
or postsecondary education commission. They review and evaluate, for 
approval in each state, the programs of education that are offered by 
educational institutions, including universities, junior colleges, and 
other VA veterans' educational assistance programs under the Montgomery 
GI Bill. SAAs also approve employer sponsored on-the-job training and 
apprenticeship programs.
    PVA supports possible changes to the MGIB to broaden the scope of 
training available by participating in this benefit. Educational 
benefits are important in assisting the military in recruitment 
efforts. Those men and women who have chosen to serve our country in 
uniform deserve every opportunity that is available to train for their 
next stage in life.
    Chairwoman Herseth Sandlin and members of the Subcommittee, PVA 
stands ready to assist you in any way to improve education benefits, 
particularly through the MGIB, for all servicemembers--active duty, 
National Guard, and Reserves. We look forward to addressing any 
legislation proposals you might have.
    PVA would like to thank the Subcommittee once again for allowing us 
to submit a statement. We would be happy to receive any questions that 
you might have.

                                 <F-dash>
          The President's High Growth Job Training Initiative
                 Employment and Training Administration
                   United States Department of Labor
    In remarks to operating engineers on Labor Day 2003, President Bush 
laid out his ground breaking approach for closing skills gaps: ``The 
High Growth Job Training Initiative in this administration is aiming to 
give workers the skills they need to realize their dreams. It's a 
collaborative effort to help team up people with the jobs that are 
needed, to make sure that the changes in our economy don't leave people 
behind.''
    This initiative represents the first step in a series of actions 
that the Department of Labor's Employment and Training Administration 
(ETA) has taken to engage business, education and the workforce 
investment system to work together to develop solutions to the 
workforce challenges facing high growth industries. Fields like health 
care, information technology, and advanced manufacturing have jobs and 
solid career paths left open due to a lack of people qualified to fill 
them. The High Growth Job Training Initiative targets education and 
skills development resources toward helping workers gain the skills 
they need to build successful careers in these and other growing 
industries.
    To put this approach into action, ETA identified 14 sectors that 
fit within the following criteria: (1) they are projected to add 
substantial numbers of new jobs to the economy or affect the growth of 
other industries; or (2) they are existing or emerging businesses being 
transformed by technology and innovation requiring new skills sets for 
workers. The sectors include:

    <bullet>  Advanced Manufacturing
                                          <bullet>  Geospatial 
Technology
    <bullet>  Aerospace
                                          <bullet>  Health Care
    <bullet>  Automotive
                                          <bullet>  Homeland Security
    <bullet>  Biotechnology
                                          <bullet>  Hospitality
    <bullet>  Construction
                                          <bullet>  Information 
Technology
    <bullet>  Energy
                                          <bullet>  Retail
    <bullet>  Financial Services
                                          <bullet>  Transportation

    The High Growth Job Training Initiative continues to invest in 
national models and demonstrations of workforce solutions in these 
sectors designed to achieve the following outcomes:

    <bullet>  Targeted investment of workforce development resources 
and support for private and public sector partnerships to ensure the 
development of workers' skills in occupations where industry has 
identified needs.
    <bullet>  Increased integration of community and technical college 
efforts with business and the public workforce system activities to 
meet the skills training needs of high growth industries.
    <bullet>  Increased opportunities for employers to use 
apprenticeship training as skills development methodology, combining 
on-the-job training and academics, to ensure a pipeline of skilled 
workers.
    <bullet>  Providing workers with paths to career enhancing 
opportunities in high growth occupations.

    By expanding the local workforce system's capacity to be market-
driven, responsive to local economic needs, and a contributor to the 
economic well-being of the community, the Employment and Training 
Administration is promoting workforce quality, enhanced productivity, 
and economic competitiveness.
    During 2006, the President's High Growth Job Training Initiative's 
evolution will continue along competitive lines established in 2005 
with the health care and biotechnology sector competition. This year 
competitions are expected for talent development investments in the 
advanced manufacturing, construction, energy, and homeland security 
industry sectors.

                                 <all>

</pre></body></html>
